<html>
<title> - HEARING TO REVIEW USDA'S INFORMATION TECHNOLOGY SYSTEMS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
        HEARING TO REVIEW USDA'S INFORMATION TECHNOLOGY SYSTEMS

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON DEPARTMENT OPERATIONS,
                   OVERSIGHT, NUTRITION, AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 10, 2010

                               __________

                           Serial No. 111-43


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
?



                  U.S. GOVERNMENT PRINTING OFFICE
55-623                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

TIM HOLDEN, Pennsylvania,            FRANK D. LUCAS, Oklahoma, Ranking 
    Vice Chairman                    Minority Member
MIKE McINTYRE, North Carolina        BOB GOODLATTE, Virginia
LEONARD L. BOSWELL, Iowa             JERRY MORAN, Kansas
JOE BACA, California                 TIMOTHY V. JOHNSON, Illinois
DENNIS A. CARDOZA, California        SAM GRAVES, Missouri
DAVID SCOTT, Georgia                 MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                STEVE KING, Iowa
STEPHANIE HERSETH SANDLIN, South     RANDY NEUGEBAUER, Texas
Dakota                               K. MICHAEL CONAWAY, Texas
HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska
JIM COSTA, California                JEAN SCHMIDT, Ohio
BRAD ELLSWORTH, Indiana              ADRIAN SMITH, Nebraska
TIMOTHY J. WALZ, Minnesota           ROBERT E. LATTA, Ohio
STEVE KAGEN, Wisconsin               DAVID P. ROE, Tennessee
KURT SCHRADER, Oregon                BLAINE LUETKEMEYER, Missouri
DEBORAH L. HALVORSON, Illinois       GLENN THOMPSON, Pennsylvania
KATHLEEN A. DAHLKEMPER,              BILL CASSIDY, Louisiana
Pennsylvania                         CYNTHIA M. LUMMIS, Wyoming
BOBBY BRIGHT, Alabama
BETSY MARKEY, Colorado
FRANK KRATOVIL, Jr., Maryland
MARK H. SCHAUER, Michigan
LARRY KISSELL, North Carolina
JOHN A. BOCCIERI, Ohio
SCOTT MURPHY, New York
EARL POMEROY, North Dakota
TRAVIS W. CHILDERS, Mississippi
WALT MINNICK, Idaho
------

                                 ______

                           Professional Staff

                    Robert L. Larew, Chief of Staff

                     Andrew W. Baker, Chief Counsel

                 April Slayton, Communications Director

                 Nicole Scott, Minority Staff Director

                                 ______

   Subcommittee on Department Operations, Oversight, Nutrition, and 
                                Forestry

                     JOE BACA, California, Chairman

HENRY CUELLAR, Texas                 JEFF FORTENBERRY, Nebraska, 
STEVE KAGEN, Wisconsin               Ranking Minority Member
KURT SCHRADER, Oregon                STEVE KING, Iowa
KATHLEEN A. DAHLKEMPER,              JEAN SCHMIDT, Ohio
Pennsylvania                         CYNTHIA M. LUMMIS, Wyoming
TRAVIS W. CHILDERS, Mississippi

               Lisa Shelton, Subcommittee Staff Director

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Baca, Hon. Joe, a Representative in Congress from California, 
  opening statement..............................................     1
Fortenberry, Hon. Jeff, a Representative in Congress from 
  Nebraska, opening statement....................................     2
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     3
    Prepared statement...........................................     4

                               Witnesses

Smith, Christopher L., Chief Information Officer, Office of the 
  Chief Information Office, U.S. Department of Agriculture, 
  Washington, D.C................................................     5
    Prepared statement...........................................     7
Coppess, Jonathan W., Administrator, Farm Service Agency, U.S. 
  Department of Agriculture, Washington, D.C.....................    12
    Prepared statement...........................................    14
Johnson, Roger, President, National Farmers Union, Washington, 
  D.C............................................................    28
    Prepared statement...........................................    29
Mayfield, Mike, National Legislative Chairman, National 
  Association of Farm Service Agency Office Employees, Pulaski, 
  TN.............................................................    31
    Prepared statement...........................................    33
Turner, Craig, President, National Association of Farmer Elected 
  Committees, Matador, TX........................................    35
    Prepared statement...........................................    36
Craig, Ph.D., William J. ``Will'', President, National States 
  Geographic Information Council; Associate Director, Center for 
  Urban & Regional Affairs, University of Minnesota, Minneapolis, 
  MN.............................................................    48
    Prepared statement...........................................    49
Krosch, Jim, Supervisor, Stevens Soil and Water Conservation 
  District, Morris, MN; on behalf of National Association of 
  Conservation Districts.........................................    55
    Prepared statement...........................................    56


        HEARING TO REVIEW USDA'S INFORMATION TECHNOLOGY SYSTEMS

                              ----------                              


                       WEDNESDAY, MARCH 10, 2010

                  House of Representatives,
 Subcommittee on Department Operations, Oversight, 
                            Nutrition, and Forestry
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Joe Baca 
[Chairman of the Subcommittee] presiding.
    Members present: Representatives Baca, Dahlkemper, Peterson 
(ex officio), Fortenberry, King, and Lummis.
    Staff present: Claiborn Crain, John Konya, Robert L. Larew, 
Merrick Munday, Clark Ogilvie, James Ryder, Lisa Shelton, Anne 
Simmons, April Slayton, Debbie Smith, Brent Blevins, and 
Sangina Wright.

    OPENING STATEMENT OF HON. JOE BACA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    The Chairman. I would like to call to order the hearing of 
the Subcommittee on Department Operations, Oversight, 
Nutrition, and Forestry to review USDA's information technology 
systems.
    I will begin with my opening statement and then I will turn 
it over to the Ranking Member to make his opening statement. 
Then I would like to have the Chairman of the Agriculture 
Committee, Collin Peterson, ask the first question, and then we 
will allow the witnesses to make their statements.
    Good morning. Thank you all for being here before the 
Subcommittee as we explore the role information technology 
plays at USDA.
    Today we will study how IT is utilized in many different 
USDA programs. Hopefully, we will be able to determine how IT 
is making these programs more efficient, more cost-effective, 
and better for the people they serve. Like most of us, I take 
IT for granted until I suddenly don't have them. For many USDA 
programs, IT is not only a convenience, it is an absolute 
necessity.
    For example, during the 2008 Farm Bill, food stamps--the 
actual coupons--were made invalid. Now, SNAP participants rely 
completely on the electronic benefits transfer system. This has 
helped to greatly reduce the negative stigma that many people 
associated with the use of food stamps.
    But this policy change had another purpose, to reduce the 
rate of fraud within SNAP Programs. Unfortunately, with cases 
of SNAP benefits traded for cash being reported, the need for 
this type of fraud prevention is still present. We have all 
read the articles that have reported stories about how 
recipients and certain grocers have defrauded the United States 
Government, by acting like they are buying food products when, 
in fact, they are not buying those food products, but getting 
back the cash. And we are paying for that.
    Today's topic is a very large one that affects all programs 
and agencies within the Department, and within the larger 
Federal Government. Just yesterday, it was reported that a 
national biometric ID card may be the newest tool to enforce 
workplace immigration laws.
    Finally, the goals of technology are having a substantial 
impact on the way our government operates. Today, we have many 
questions we would like to ask. How much of the USDA overall 
budget is put towards IT expenditures and has the Department 
kept up with the changing technology and landscape? Is much of 
USDA technology outdated equipment? Has technology helped make 
traditional farm programs more easily accessible to rural 
users? What are the Department's short and long range plans for 
making improvements to IT systems?
    All of us understand the need to make tough budgetary 
decisions in these difficult economic times. Now, more than 
ever, the cost-effectiveness of agriculture and nutrition 
programs is absolutely essential to the future of USDA, so 
today we will listen and learn from two excellent panels of 
witnesses on the state of technology at USDA. I hope the 
hearing will build an important body of evidence so that we can 
work together to best meet the needs of American farmers and 
all of our citizens.
    I now yield to the Ranking Member, Congressman Fortenberry, 
for his opening statement.

OPENING STATEMENT OF HON. JEFF FORTENBERRY, A REPRESENTATIVE IN 
                     CONGRESS FROM NEBRASKA

    Mr. Fortenberry. Thank you, Mr. Chairman. I will be fairly 
brief.
    As you and I are both aware, USDA has been dealing with 
information technology since before we were both elected to 
Congress. And it is important today that we hear about these 
efforts, of particularly the Farm Service Agency, but also 
other agencies in the Department, as to how they are addressing 
ongoing issues with the implementation of new hardware and 
software, and how this actually will affect program delivery.
    The second panel will offer us perspective on the 
challenges faced by farming groups in dealing with the USDA on 
technical issues. We will hear from those employees whose jobs 
are directly affected by these programs on a daily basis, and 
from witnesses who will be offering suggestions about how USDA 
can better address its technological needs in future years and 
better utilize technology from the private sector.
    Technology continues to advance at a dizzying rate, as we 
are all aware. USDA has been somewhat slow to integrate these 
advancements into existing infrastructure. This has resulted in 
a number of problems in recent years, including inability to 
access personnel files and delays in payments for USDA programs 
to farmers across the country.
    Congress has allocated tens of millions of dollars to the 
USDA to upgrade and maintain a reliable system for tracking 
data for the thousands of farmers and ranchers who use these 
programs. We must provide a reliable, secure system so that all 
of our stakeholders can have confidence in the delivery of our 
farm bill programs in a timely manner. Without addressing these 
issues now, program delivery may suffer.
    Mr. Chairman, I look forward to hearing from all of our 
witnesses about their thoughts and suggestions as we consider 
this issue, particularly during the debate on the next farm 
bill, and I want to thank you for holding this hearing.
    And I yield back.
    The Chairman. Thank you very much, Mr. Fortenberry, for 
your opening statement.
    At this point, it is going to be a little out of the 
ordinary process. I am going to allow the Chairman of the 
Agriculture Committee, the privilege of asking a question. 
Hopefully, you can bear in mind his question as you make your 
statements. So I will turn it over to Collin Peterson.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman. Thank you and the 
Ranking Member for your leadership, and I have met with the 
gentlemen a couple times and, hopefully, I know the challenge 
they have with money. In the past we were off on a track that I 
think didn't made any sense. I think, at least now, we are on a 
path that will get us to where we need to go, if we can just 
get the resources to make these changes. To have a system where 
you still have COBOL is pretty crazy, but, hopefully, today we 
will get an update on where that is all at.
    I apologize, I have a meeting with the Trade Ambassador and 
I had to accommodate his schedule so I have to step out. I may 
be able to get back. I don't know if you will still be up 
there.
    In the farm bill, we have this provision to try to put the 
prices of livestock sales on the Internet in real time on a 
daily basis, so that everybody could have this information at 
the same time. We have issues now swirling around on 
concentration in the livestock industry, and to my judgment, 
the best thing we can do is to get everybody this information 
so that everyone has it at the same time. This is important for 
the guys that are concerned about the big packers, so they know 
what those prices are. I have heard that getting this 
information, apparently, has bogged down a little bit. It was 
explained to me that it was too complicated, or you don't have 
resources, so I would like to know where that is at, and how 
you are doing trying to get that pulled together, and if there 
is anything we can do on the Committee to help you get to where 
we need to be, Mr. Smith, if you could.
    Mr. Smith. If I could respond, thank you, Chairman 
Peterson. I would like to get back to you in writing on the 
details on that program, but I see no reason in this day and 
age why we can't provide that. Certainly, with the technologies 
if the information is available to put that out in real-time or 
near real-time, if there is some reason that we should delay 
for some amount of time so that it doesn't impact markets in 
some way. But, I will take that back and I will get you an 
answer very shortly.
    Mr. Peterson. Have you been working on this yet?
    Mr. Smith. I specifically have not been and I have not had 
an update on that, so I will go back.
    Mr. Peterson. Yes, it was in the farm bill, and I had a 
discussion with some people at the Department who were telling 
me that they thought it was delayed because it was too 
complicated, but this does not need to be complicated. We may 
have to do something with mandatory price reporting to get you 
the information you need. If you can go back and check on where 
that is at. I really think that we need to work together to try 
to get this set up as soon as we can because that is the 
biggest thing we can do to get at this whole competition issue. 
If the producers out there, the smaller producers have all the 
information, if they know what the big packers are paying it 
solves a lot of these issues that are out there. It will answer 
the question about what is going on, is there undo influence, 
and so forth. If you could check on it and give me some kind of 
a timetable how and when you think you can get it done. If you 
have challenges that you need help from us to get it done, let 
us know that, but I would like to get this going as soon as we 
can.
    Mr. Smith. Yes, sir, I will do so.
    Mr. Peterson. All right, thank you.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Peterson follows:]

  Prepared Statement of Hon. Collin C. Peterson, a Representative in 
                        Congress from Minnesota

    Thank you, Chairman Baca for calling today's hearing to review 
USDA's information technology systems. We have passed the point at 
which simply talking about upgrades and changes is enough.
    Modernization of information technology systems is an ongoing 
challenge for USDA. In my opinion, without improving the IT systems, it 
is difficult, if not impossible to move forward with many new 
initiatives and reforms to existing programs.
    Upgraded IT systems are necessary to allow USDA to streamline 
service, identify and eliminate waste fraud and abuse, and ensure the 
security of data they collect. And, most essentially, these systems 
will ensure that USDA can effectively deliver the programs that support 
farmers, ranchers and others who participate in USDA-run programs.
    In the past, a lot of money has been spent on these systems with 
little to no results. Fortunately, USDA is implementing a new strategy 
with new funding to make some of the significant changes necessary to 
deliver current and future farm programs. This time around, we are 
actually getting somewhere with modernization.
    The MIDAS plan to modernize and stabilize the IT system is a 
concept that USDA has been developing for many years. However, the new 
Administration's emphasis on IT at the Department and the more 
realistic approach to the ongoing and dynamic needs of producers lead 
me to believe that USDA has a realistic plan to transition from an 
internally built and outdated computer system like COBOL to a modern 
and flexible web based system.
    I am looking forward to hearing an update about USDA's progress on 
this modernization effort and to learning more about the IT challenges 
and opportunities facing the Department. Thank you again, Chairman 
Baca, and I yield back my time.

    The Chairman. Thank you very much for asking that question.
    With that, we will begin with our panelists. We would like 
to welcome both our panelists this morning. You will have 
approximately 5 minutes and we will stick to the 5 minute rule 
to give your opening statements, and then we will proceed with 
questions afterward. We will begin with Mr. Chris Smith, the 
Chief Information Officer, U.S. Department of Agriculture here 
in Washington, D.C. Mr. Smith.

            STATEMENT OF CHRISTOPHER L. SMITH, CHIEF
            INFORMATION OFFICER, OFFICE OF THE CHIEF
             INFORMATION OFFICE, U.S. DEPARTMENT OF
                 AGRICULTURE, WASHINGTON, D.C.

    Mr. Smith. Chairman Baca and Ranking Member Fortenberry, 
thank you very much for the opportunity to share with you our 
progress on using information technology to set a new course 
for USDA to promote a safe, sustainable and nutritious food 
supply, and to ensure that America is a leading player in the 
fight against global hunger, climate change and revitalization 
of rural communities by expanding economic opportunities.
    USDA is a diverse and complex organization, as you are well 
aware, with more than 100,000 employees throughout 7,000 
offices in this country and 100 countries around the globe. In 
Fiscal Year 2010, we will deliver approximately $180 billion in 
goods and services through grants, loans and other programs. 
Those 300 programs, worldwide leveraged an extensive network of 
Federal, state and local cooperators. The infrastructure that 
supports those offices and employees is more than 150,000 
desktops and laptops, and nearly 10,000 servers. We have five 
Enterprise Data Centers and multiple data rooms that are not up 
to the standards at this point.
    Working with the Secretary, we have prioritized the 
necessary investments to enable the most effective delivery of 
critical IT modernization initiatives, and have developed a 
thoughtful and deliberate approach to implement these 
improvements. Investments in these foundational elements, 
communications and collaboration tools, and mission systems 
will ensure the security, protection and privacy of information 
collected and the most efficient and effective delivery of 
services to our citizens, producers and industry. While we have 
charged a clear path for modernizing USDA, there are challenges 
that must be met. I am going to hit three of those challenges 
very quickly.
    We have extremely complex business models when you compare 
what we do within the Department of Agriculture with industry. 
We have a large finance and banking portfolio with a $100 
billion under active portfolio and rural development loans. 
Last year, in Fiscal Year 2009, we insured 1.7 million 
policies, over 264 million acres. We have 193 million acres of 
forestland and grassland, as well as 1.3 billion in private 
lands in which we seek to help with conservation practices. 
That means that while we are standardizing and consolidating, 
there needs to be uniqueness in some of those different 
business models and that is a challenge for us as we move 
forward, but we believe we have the answer to that.
    This is upon an aging infrastructure. I will just take the 
Service Center Agencies between Rural Development and Natural 
Resources Conservation Service, and the Farm Services Agency. 
In the roughly 3,000 offices across the country, we have 2,000 
phone systems that are over 15 years old. With the average life 
that we like to see with our phone systems at 10 years, we are 
5 years behind. There are more than 3,000 field office servers 
with an average life of 7 years, that we want to see a 5 year 
life, and the list goes on and on. My colleague, Jonathan 
Coppess, will talk about some of the specific technology he 
needs at FSA and I will touch on them lightly, also.
    Third, we have fragmented services and highly decentralized 
security operations. Currently, we have 27 separate e-mail 
systems, multiple data and computing facilities that don't meet 
the bare minimum for securing our information. Heretofore, for 
security and cybersecurity we have had a policy and compliance-
based framework. We need to have an operational framework that 
takes care of this end and secures our information from all 
threats.
    I have mentioned the challenges. In collaboration with USDA 
agencies, I have laid out a clear vision and comprehensive 
approach to successfully modernize IT for the Department. This 
overall IT modernization approach utilizes a disciplined, 
multi-faceted strategy with three areas of focus. I touched on 
them earlier, foundational elements; communications; 
collaboration and productivity tools; and mission systems. I am 
going to touch on a few key initiatives within each one of 
those three areas.
    In the foundational elements, progress is being made 
towards implementing a modern, secure, robust, scalable and 
highly available delivery platform for the entire USDA. A large 
part of this is our cybersecurity effort and with the 
appropriations given us to in Fiscal Year 2010, we will conduct 
network security assessments across all agencies, procure and 
deploy the appropriate security tools, and establish a security 
operations center.
    We have a Financial Management Modernization Initiative 
which met initial operating capability which will reduce nine 
general ledgers down to one and improve reporting and fiscal 
stewardship. The Optimized Computing Environment is a refresh 
of the Common Computing Environment, replacing those 2,000 
phone systems, the servers and the other infrastructure I spoke 
about.
    In the communications, collaboration and productivity area, 
we have a robust approach for collaborative tools. This suite 
of productivity-enhancing tools supports better interaction 
among workgroups, reduces travel and its associated expenses, 
and provides for better management of a global workforce.
    Mission systems: My colleague, as I said, is going to talk 
about MIDAS and the farm systems modernization so I will defer 
to him for that.
    And the last mission enabling point I would like to make is 
we have had a long tradition of using geospatial imagery and 
tools. Forest Service uses it for wild land fire management, 
for recreational activities within forests and national parks, 
Natural Resources Conservation Service for soil layers and the 
list goes on and on. And one of the most exciting things that I 
want to talk about is the ability, Mr. Chairman, that you spoke 
about is to use these tools for electronic benefits transfer 
and SNAP benefits to reduce fraud.
    So in closing, I would like to say that we have a very 
concrete plan. We have a comprehensive approach and while we 
are making steady progress, a great deal of work remains to be 
done. That is why I am advocating for the continued 
consolidation of these foundational elements, communications, 
collaboration tools. Thank you, sir.
    [The prepared statement of Mr. Smith follows:]

 Prepared Statement of Christopher L. Smith, Chief Information Officer,
Office of the Chief Information Office, U.S. Department of Agriculture, 
                            Washington, D.C.

    Chairman Baca, Ranking Member Fortenberry, and Members of the 
Subcommittee, thank you for the opportunity to share with you our 
progress on using information technology (IT) to set a new course for 
USDA to promote a safe, sustainable, and nutritious food supply and to 
ensure that America is a leading player in the fight against global 
hunger, climate change, and revitalization of rural communities by 
expanding economic opportunities.
    USDA programs touch every American and many others around the 
world. In Fiscal Year (FY) 2010, USDA estimates that it will provide 
roughly $180 billion in total program benefits including loans, grants 
and other services through more than 300 programs worldwide. Over 50 
million Americans call rural America home and just as we seek to 
increase economic opportunity and improve the quality of life for all 
rural Americans through key foundational elements such as producing 
renewable energy, developing local and regional food systems, and 
making better use of Federal programs through regional planning that 
offer a new future to the next generation.so must USDA invest in the 
key foundational elements to ensure that the Department can efficiently 
and effectively deliver its programs.
    Working with the Secretary we have prioritized the necessary 
investments to enable the most effective delivery of these initiatives 
and have developed a thoughtful and deliberate approach to implement 
these improvements. We have identified the key initiatives upon which 
USDA will modernize its service offerings to ensure open, transparent 
and collaborative avenues through which USDA employees, farmers, 
ranchers and all citizens can easily access USDA information from 
wherever they may be: the field, the forest, the farm, and their homes. 
Investments in these foundational elements, communications and 
collaboration tools, and mission systems will ensure the security, 
protection and privacy of information collected and the most efficient 
and effective delivery of services to our citizens, producers and 
industry. While we have charted a clear path for modernizing USDA there 
are challenges that must be met and be turned into opportunities to 
excel.

Information Technology Challenges
    USDA's information technology challenges are not uncommon to very 
large, complex organizations with a highly diverse set of missions 
ranging from financial to inspection services. Caused in part by 
resource constraints or fragmented operations, challenges tend to 
center around:

  <bullet> Aging Infrastructure. Managed and operated by the 
        International Technology Service, the Common Computing 
        Environment (CCE), is the core information technology 
        infrastructure providing end-user support to USDA's Service 
        Center Agencies (SCA). These agencies include the Farm Service 
        Agency, Rural Development, and the Natural Resources 
        Conservation Service. Many components of CCE have not been 
        refreshed since their initial implementation in 2000. For 
        example, 3,000 field office servers, thousands of network 
        routers and switches, and the voice communication 
        infrastructure of field offices are over 6 years old and have 
        reached the end of their warranty support. These components are 
        starting to fail at an increasing rate and are becoming 
        increasingly expensive to maintain.

  <bullet> Fragmented services. Unlike many large organizations where 
        e-mail is managed and operated as an enterprise service, in 
        USDA there are 27 e-mail systems, with each agency or staff 
        office responsible for maintaining its own system and 
        connecting to the departmental hub where routing, e-mail 
        filtering and global address lists were maintained. Only the 
        largest USDA agencies are taking advantage of the economies of 
        scale offered by enterprise services. This fragmented approach 
        has hampered USDA's ability to implement and adopt new 
        collaboration technologies that leverage part or the entire e-
        mail platform to deliver services such as instant and unified 
        messaging (integrated phone and e-mail inbox).

  <bullet> Highly decentralized security operations. For years, USDA's 
        enterprise security program has focused on policy and 
        oversight-related activities. Much of the security monitoring 
        and response beyond the departmental network backbone is 
        handled by agencies and staff offices with a limited set of 
        tools. These piecemeal compliance-based frameworks do not offer 
        sufficient protection from security threats that have become 
        very sophisticated. A Department-wide enterprise framework that 
        provides defense-in-depth with a common cybersecurity tool set 
        is needed to enable a proactive methodology to detect, block, 
        and remediate threats and provide the means to better assess 
        and understand threat patterns and trends to inform actions 
        focused on constantly strengthening our security posture.

Modernization Overview
    In collaboration with USDA agencies, I have laid out a clear vision 
and comprehensive approach to successfully modernize the Department. 
The overall IT modernization approach utilizes a disciplined, multi-
faceted strategy with three key areas of focus:

  <bullet> Foundational Elements--Initiatives in this area center on 
        enterprise business services and infrastructure and include 
        Financial Management Modernization Initiative (FMMI), 
        Agriculture Security Operations Center (ASOC), modernization of 
        the Computing Environment, and Enterprise Data Centers (EDC).

  <bullet> Communications/Collaboration/Productivity--Initiatives in 
        this area focus on enterprise communications services to 
        improve collaboration and increase productivity and include 
        Next Generation Network (NGN) and Unified Communications (UC).

  <bullet> Mission Systems--Initiatives in this area center on critical 
        and often related program delivery services and include 
        Modernize and Innovate the Delivery of Agricultural Services 
        (MIDAS), Web-based Supply Chain Management (WBSCM), Public 
        Health Information System (PHIS), and geospatial services.

    In some instances, Office of the Chief Information Officer (OCIO) 
is leading an initiative, while in others, OCIO is collaborating with 
the lead Agency or Staff Office to ensure appropriate leadership, 
governance, enterprise architecture, capital planning, and investment 
control.

Foundational Elements
    Progress continues to be realized towards implementing a modern, 
secure, robust, scalable and highly available delivery platform across 
the entire USDA enterprise. Sustaining our efforts toward consolidating 
and streamlining core foundational services is critical to achieve our 
modernization objectives.
    The OCIO is aggressively working to improve Information Technology 
systems security to counter ongoing formalized nation-state and 
criminal cyber attacks and threats. Cyber Security is a long-term 
critical area of importance to USDA, the Federal Government and our 
Industry Partners. The OCIO is proactively working with all USDA 
agencies and has partnered with the United States Computer Emergency 
Response Team, the Federal Bureau of Investigations and others to 
defend against this Federal-wide threat.
    The FY 2010 Appropriation for OCIO included funding to commence our 
36 month plan to improve information technology security. The increase 
in funding supports three initiatives: (1) conduct network security 
assessments; (2) procure and deploy security tools; and (3) establish 
an Agriculture Security Operations Center (ASOC) to monitor and protect 
USDA's systems.
    The organizational design of the ASOC is completed and staffing of 
its critical positions with talented Federal employees is underway. A 
number of contractor services are helping to support our daily 
operations while we complete our staffing. The ASOC oversees the 
execution of all the security initiatives and projects, to ensure the 
public that the results of these initiatives and projects are focusing 
on and successfully addressing the greatest risks to the security of 
Federal information assets entrusted to the care of the Department of 
Agriculture.
    A key component of our network security operations is to assess the 
present vulnerabilities in Departmental networks and reduce or 
eliminate their effect. To date, we have completed assessments within 
three agencies and staff offices, including the Foreign Agricultural 
Service (FAS). We have begun assessments in other agencies and staff 
offices, including the Food Safety and Inspection Service (FSIS), and 
expect to fully complete eleven assessments by the end of the fiscal 
year.
    In addition to these assessments, we are acquiring and deploying 
various tools to monitor, secure and improve the ``state of health'' of 
the USDA IT infrastructure. Many agencies and offices have completed 
the installation of several key tools and obtain full benefit from 
them. For example, our end point security tool installs software on 
each end-user desktop, laptop and server within USDA. It allows USDA to 
examine, report centrally, and, ultimately, manage end-user computers 
connected to our networks. To date we have installed the software on 
over 70,000 devices. Before the fiscal year ends, we expect all 
agencies and staff offices to obtain this same benefit as they complete 
their roll-outs. In addition to protecting end-user computers, we are 
migrating business applications into Enterprise Data Centers.
    OCIO, in collaboration with the SCA, has developed a comprehensive 
plan designed to modernize the CCE infrastructure to prevent major IT 
failures and associated agency productivity losses and resultant 
customer service impacts. This effort replaces outdated components of 
the CCE, many of which have exceeded their expected life cycles. 
Component refreshment will reduce system vulnerabilities and improve 
the performance and effectiveness of the shared infrastructure. These 
improvements will allow the SCA to better serve program participants 
with a more flexible and reliable IT infrastructure. The President's FY 
2011 budget request includes additional funding to allow for the first 
system-wide refresh of the CCE since the infrastructure was implemented 
in 2000. The CCE revitalization effort will improve system security, 
reduce the long term cost of infrastructure services, and improve 
service reliability.
    Implementation of a modern, secure and stable work environment that 
empowers a mobile workforce of more than 35,000 personnel in counties 
across the nation is of critical importance. Such an environment needs 
to be in place to more efficiently and effectively deliver 
approximately $58 billion in USDA goods and services to about 1.7 
million farms and more than 50 million Americans in rural areas.
    Under the Enterprise Data Center (EDC) initiative, OCIO is working 
with USDA agencies to migrate business systems from being housed in 
multiple at-risk agency and staff office computer rooms into a limited 
number of scalable, highly available, Departmental Data Centers with 
disaster recovery capabilities that utilize the latest ``green'' 
infrastructure technologies. EDCs are certified, Department of Justice, 
Level IV Secure facilities that are able to deliver increased 
efficiency and performance by leveraging economies of scale. As systems 
are migrated, this effort provides improved system availability, 
enhanced systems management, and better overall cyber security as well 
as the most economic delivery of these services. A number of agencies 
are already migrated, to include the SCA, while others--to include Food 
Safety and Inspection Service (FSIS) and Foreign Agricultural Service 
(FAS)--are on schedule to complete their EDC migrations by end of 
calendar year 2010. Additionally, several agencies have migrated over 
fifty percent of their critical applications. These agencies include 
the Animal and Plant Health Inspection Service (APHIS), Forest Service 
(FS), and National Agricultural Statistics Service (NASS), with full 
migration completion dates currently scheduled for calendar year 2011.
    The FMMI initiative, led by Office of the Chief Financial Officer, 
will improve financial management performance by efficiently providing 
USDA with a modern, core financial management system that provides 
maximum support to the mission and provides for open, transparent 
stewardship of public funds. It will serve as the finance and 
accounting software base for the Farm Service Agency's MIDAS 
initiative. The initial release of FMMI was implemented by Departmental 
Management staff offices at the beginning of FY 2010.
    These will improve performance, security, and availability of 
USDA's mission critical information and assets in day-to-day operations 
as well as in the event of a disaster.

Communications/Collaboration/Productivity Modernization
    USDA employees operate in more than 7,000 locations across the 
country and in approximately 100 countries. It is imperative that staff 
have a robust set of tools to be able to seamlessly communicate and 
collaborate from those locations, from the field, or from telework 
locations.
    OCIO's Unified Communications initiative provides video 
teleconferencing, web collaboration, instant messaging, e-mail and 
other services all of which directly enable employee productivity, 
collaboration, and customer support wherever they operate. Through this 
program, OCIO is replacing 27 disparate e-mail systems with one 
enterprise system that will enable any employee to directly communicate 
with the more than 100,000 other USDA employees. The Enterprise 
Messaging System is operational with approximately 50,000 active e-mail 
boxes. Migration of remaining agencies is in progress. This suite of 
productivity-enhancing tools supports better interaction among 
workgroups, reduces travel and its associated expenses, and provides 
for better management of a global workforce allowing us to better serve 
Americans and interact in a more open and collaborative manner. This 
system also will reduce costly litigation exposure risk by establishing 
an effective way for preserving, searching, and retrieving e-mails 
sought in civil discovery.
    Under the NGN initiative, OCIO is transitioning its Unified 
Telecommunications Network (UTN) and individual agency networks from 
the FTS2001 contract to the Networx contract. Deployed in 2005, UTN is 
the USDA enterprise-wide backbone providing employees connectivity to 
the Internet and data centers for all USDA agencies. It also provides 
the contract mechanism for USDA agencies to procure network services 
such as access circuits, virtual private networks, network monitoring, 
etc. UTN has enabled USDA's migration from stove-piped network 
solutions toward an enterprise approach that maximizes the collective 
buying power to realize best value in telecommunications services. 
Since deployment, this investment has achieved great success, 
consistently exceeding initial performance expectations in terms of 
availability, reliability, network security, bandwidth, and in 
documented customer satisfaction.
    The NGN initiative will further consolidate the network 
infrastructure and begin to provide more flexible capacity utilization 
options to OCIO's internal USDA customers and provide end to end 
visibility of our operations (improving performance of business 
applications and overall security). It is consistent with the 
Department's enterprise architecture goal of replacing multiple, 
redundant systems and technology components using a coordinated, 
enterprise-wide approach and is described in detail within USDA's 
Enterprise Architecture Transition Strategy document. As the 
enterprise-wide telecommunications infrastructure for the Department, 
the UTN is a cornerstone technology enabler of Department-wide efforts 
such as the USDA eGovernment initiatives and the USDA Continuity of 
Operations (COOP) network. The UTN enables such critical public-facing 
USDA systems as the Farm Loan Program, Public Education Materials 
(e.g., Food Pyramid, Food Safety), School Lunch Program, Supplemental 
Nutrition Assistance Program (SNAP), and Forest Service Incident 
Response Dispatch Service (ROSS), etc. USDA envisions increased use of, 
and reliance upon, UTN well into the future. UTN is positioned to 
support the Presidential priorities for a transparent, participatory 
and collaborative government.

Mission Systems Modernization
    Built upon the foundational elements and leveraging our 
communications and collaboration capabilities, USDA must also provide 
modern business applications to staff and the public we serve.
    As the Committee is aware, the applications and aging technology 
infrastructure upon which the Farm Service Agency's programs are 
delivered caused an almost complete shutdown of program and service 
delivery in January 2007. The funding Congress provided to 
``stabilize'' and improve this infrastructure and applications has been 
well spent. Portions of these efforts will be useful for a modernized 
platform upon which the Farm Service Agency will implement the new 
application MIDAS (Modernize and Innovate the Delivery of Agricultural 
Services).
    Under the MIDAS initiative, FSA will transform delivery of Farm 
Program benefits into a 21st century business model. FSA has created 
the MIDAS program to meet the needs of its customers and its employees. 
The objective of MIDAS is to streamline FSA business processes and to 
develop an effective long-term IT system and enterprise architecture 
for farm program delivery. MIDAS will:

  <bullet> Reengineer business processes to be common and centralize 
        data assets to support all farm programs, eliminate program 
        specific duplication of functionality and non-integrated, 
        distributed data that exists between farm program software 
        applications;

  <bullet> Provide capability to meet the increasing demand for 
        customer self-service;

  <bullet> Remove all of the legislatively mandated farm program 
        delivery software applications from the outdated AS400/S36 
        computing platform by putting them on a web-enabled, common, 
        commercial off-the-shelf business platform; and

  <bullet> Increase compliance with modern internal control structures 
        and effectively implement improved IT security.

    The MIDAS Program Office has actively engaged farm programs to 
analyze business processes and identified areas where immediate changes 
could significantly reduce processing time. The Program Office recently 
awarded the major contract for development and implementation of the 
MIDAS system. The MIDAS system level design and proof of concept 
scheduled to be completed in FY 2011, with the initial operating 
capability of MIDAS to be deployed in FY 2012.
    Under the Web-based Supply Chain Management (WBSCM) initiative, the 
Agricultural Marketing Service (AMS) is the lead in the multi-agency 
effort to develop a modern, integrated, web-based commodity 
acquisition, distribution, and tracking system for food aid both 
domestically and internationally. Replacing a more than 26 year old, 
failure prone, COBOL system, the WBSCM system will transform, 
standardize, and streamline the way USDA food aid and domestic food 
purchases are managed end to end--from planning and procurement to 
ordering, contract management and delivery. The WBSCM Program Office is 
scheduled to start user acceptance testing this month.
    The Public Health Information System (PHIS) is an integrated, 
comprehensive system of web-based applications that will provide near 
real-time collection, reporting, and analysis of food safety data and 
inspection findings for FSIS. PHIS' modern design will provide the 
agency the ability to adapt as requirements change and evolve. It will 
replace many of FSIS' legacy systems and will capture data on the 
findings of FSIS inspection program personnel as they perform their 
daily tasks (including import and export tasks) and utilize the data to 
analyze trends, produce automated model predictions, and ensure the 
data's quality to be comprehensive, timely, and reliable for decision-
making. In addition, PHIS will collect inspection findings, such as 
humane handling information, entered by FSIS inspection program 
personnel, as well as data streams from the Agency's domestic and 
international partners. This coordinated effort, made possible through 
PHIS technology, will improve the agency's ability to collect, analyze, 
and communicate data, better predict likely outcomes, and improve 
protection of public health. PHIS will be hosted in USDA Enterprise 
Data Centers for maximum availability and disaster recovery. Currently, 
PHIS is in the design and development phase and technical testing and 
integration began this month. Targeted implementation is expected to 
begin in the fourth quarter of FY 2010.
    USDA is one of the largest producers and consumers of geospatial 
imagery within the Federal Government. One example of this is the 
National Agriculture Imagery Program (NAIP), which provides digital 
aerial imagery used by USDA and other public and private users. 
Geospatial Information System (GIS) technologies used in conjunction 
with program data provides the capability to improving program 
decision-making for a variety of important USDA programs.
    For example, GIS technologies are used by tens of thousands of USDA 
staff, cooperators and approved insurance providers doing day-to-day 
operations in crop compliance, conservation planning, forestry health 
evaluations, resource assessments and inventory management, assessment 
and monitoring of crop disease outbreaks, and crop statistical 
analysis.
    Forest Service (FS) leverages GIS technology to allow scientists to 
model fire conditions and behavior; managers to plan and carry out 
fuels reduction programs; incident commanders to respond to and 
suppress fire, produce tactical fire maps, and protect lives and 
property; and planners assess post fire conditions and prescribe 
rehabilitation work. Since wildland fires typically span multiple 
jurisdictions, Forest Service geospatial technologies must work in an 
interoperable fashion with those of its partners.
    The Farm Service Agency uses GIS technology to help ensure 
compliance and land record management requirements are met. GIS serves 
as a critical communication tool for reporting of crops by farmers and 
ranchers, who can access the NAIP images via their USDA Service Center. 
The imaging ultimately assists FSA staff in determining eligibility and 
planning for conservation and other farm programs. The Common Land Unit 
(CLU) program relies on the NAIP product for maintenance of farm and 
tract records. The CLU and NAIP together provide a foundation for 
delivering programs consistently within the agency and across the 
Department with NRCS, Forest Service and Risk Management Agency (RMA). 
Conservation programs are increasingly using geospatial data to 
determine applicant eligibility and contract rates and NAIP is vital to 
this activity.
    The Natural Resources Conservation Service use of GIS technology 
enables it to tailor soils data to meet the needs of many customers 
dynamically, not just one single product. Over 3,000 counties have 
digital soil survey information that provide a user with information 
like the type of soil in a location, water holding capacity, depth to 
bedrock, depth to water table and chemical properties which can be 
accessed all from a home computer.
    Rural Development utilizes GIS in the mapping of proposed business 
and housing eligibility areas in rural America. This mapping service 
allows lenders, applicants, and potential applicants to quickly 
determine whether the area in which they are considering purchasing 
property qualifies for funding from Rural Development. Eligibility maps 
can be created based on a specific address or on a broader regional 
area, e.g., county, state. RD is exercising the opportunity to improve 
this service by deploying a Google base map which is more widely in use 
on the internet today. This will lead to faster response time and the 
addition of customer features such as accessing satellite and map-
satellite hybrid images. RD also uses geospatial data to provide 
Broadband applicants the ability to map proposed service areas in the 
submission of their Broadband loan and/or grant application.
    One of many programs where GIS technology can enhance mission 
delivery is the Food and Nutrition Service's Supplemental Nutrition 
Assistance Program (SNAP). Methods of detecting (and ultimately 
preventing) SNAP fraud by electronic benefit transaction (EBT) enabled 
retailers are essential to the successful management of the benefit 
redemption process, which involves over 16 billion transactions 
annually. Traditional methods of fraud were reduced through the use of 
EBT in the Supplemental Nutrition Assistance Program (SNAP) under the 
coupon distribution/redemption system. However, the nature of 
electronic transactions also introduced previously unknown approaches 
to committing fraud. Detecting and significantly reducing fraud by EBT 
enabled retailers is essential to the successful management of the 
benefit redemption process. To this end, the Food and Nutrition Service 
developed the Anti-Fraud Locator for EBT Transactions (ALERT) system in 
1997.
    The ALERT system has proven to be a critical tool in the FNS' fight 
against SNAP benefit trafficking, which is the exchange of SNAP 
benefits for cash. While ALERT has been very successful in fighting 
fraud, FNS is looking for new techniques to improve the system. One 
approach being evaluated is the use of Geospatial Information System 
(GIS) tools to interpret complex relationships among billions of SNAP 
electronic transaction records that might otherwise be difficult to 
detect. This moves beyond simple location maps showing suspect store 
locations and other stores within an area, and integrates business 
intelligence and predictive analysis features with a geospatial 
platform to help identify potential retailer fraud patterns, trends, 
behaviors, etc.
    My office is now further expanding the capacity of GIS technology 
tools to build sustainable strategic and operational platforms. We have 
established an Enterprise Geospatial Information Office to optimize 
extensive, but previously uncoordinated, USDA agency best practices to 
deliver consistent, game changing geo-solutions to benefit all USDA 
programs, regardless of size.

Conclusion
    While we are making steady progress a great deal of work remains to 
be done. This is why I am advocating for the continued consolidation of 
these foundational elements, improved communications and collaboration 
tools, and taking a deliberate and comprehensive approach for mission 
systems modernization planning within the Department to better secure 
and deliver, at a lower cost, USDA services and programs. Consolidation 
and protection of our technology assets will optimize use of resources, 
thereby decreasing operational costs and enabling increasing 
efficiency, while improving overall security.
    USDA must transform and modernize to ensure we meet the demands of 
the nation, to ensure an economically thriving rural America, conserve 
our national forests and private working lands, promote sustainable 
agricultural production and biotechnology exports to increase food 
security, and provide a nutritious diet for all Americans. In sum, 
these initiatives put us on the right path to provide more efficient 
and effective services and successfully deliver on our mission.
    Chairman Baca, Ranking Member Fortenberry, Members of the 
Subcommittee, this concludes my statement. I will be happy to answer 
your questions.

    The Chairman. Thank you very much, Mr. Smith.
    Next, we have Jonathan Coppess, the Administrator for the 
Farm Service Agency here in Washington, D.C. You may begin and 
if you can, try to stick to the 5 minutes. You will see the 
yellow light telling you, you have about a minute left. Thank 
you.

 STATEMENT OF JONATHAN W. COPPESS, ADMINISTRATOR, FARM SERVICE 
                   AGENCY, U.S. DEPARTMENT OF
                 AGRICULTURE, WASHINGTON, D.C.

    Mr. Coppess. Thank you, Chairman Baca and Ranking Member 
Fortenberry.
    I appreciate the opportunity to update you today regarding 
the information technology issues facing the Farm Service 
Agency. Today, I would like to provide an overview of our 
current setup in our efforts towards modernizing, and I will 
give you a brief overview as well of the National Agriculture 
Imagery Program and its benefits for farmers and ranchers in 
America.
    As you know, FSA delivers conservation, commodity, credit, 
energy and emergency disaster programs through service centers 
located in over 2,200 rural counties. Each year, these IT 
systems allow thousands of staff to serve about 1.7 million 
farmers and ranchers nationwide, and process between $15 and 
$25 billion in program payments.
    Also, as you know, FSA relies on some of the oldest systems 
within the Department of Agriculture. While certain systems 
supporting our Farm Loan Programs have been recently updated, 
our payments for farm programs, including Conservation Reserve 
Program, Price Support Programs and the 2008 Farm Bill's 
Disaster Programs, continue to depend on antiquated systems.
    Outdated hardware remains one of our most pressing 
concerns. Our hardware systems are between 10 and 24 years old 
and, as you are aware, the average lifespan of an IT component 
is 3-5 years. Our processes suffer as a result, distribution is 
slower, producers continue to make more trips to county offices 
and endure longer wait times then they would need if our staff 
were using a more modern web-based system. Producers are also 
limited from tracking their participation in program payments 
online.
    Before briefing you on our plans for modernization, I do 
want to emphasize that we have already seen some successes, 
namely in our implementation of the Farm Loan Programs Delivery 
System and the National Receipts and Receivables System. In 
Farm Loans we have migrated or replaced applications from the 
dated systems with a new package of faster web-based 
applications, to new processes which have been deployed to 
date, support a number of improvements and the average 
processing time for loans has been reduced from 41 days to 25 
days. Using these systems allowed us to deliver $173 million in 
Recovery Act Loan Funding in less than 48 hours.
    Last fall, we implemented the National Receipts and 
Receivables System, another faster web-based application for 
direct payments in the Conservation Reserve Program. While FSA 
did experience initial problems integrating data between our 
new software and our old system which did delay payments for a 
little while, 99 percent of our payments were made quickly and 
correctly and we will not experience the same integration 
issues next year.
    As with any modernization, we should expect some roadblocks 
and complications, but I believe we are making the right 
choices by living through those minor problems today to prevent 
inevitable and disastrous issues from rising in the future. The 
successes I mention are independent of FSA's modernization 
plan, although all process improvements will work together to 
make a smarter system.
    FSA's main plan has two parts: stabilization and what we 
call MIDAS, Modernize and Innovate the Delivery of Agricultural 
Systems. Stabilization will address two outstanding issues. 
First, it will address the service sales outage in 2006 and 
2007 caused by unstable web-applications.
    Second, as a necessary building block we need a contingency 
platform to ensure continued service in the event of a major 
system crash. The MIDAS project, which is ongoing, builds off 
of the stabilization and will integrate the entire portfolio of 
IT modernization. The project will replace hardware, centralize 
data and increase security. In terms of direct service, the 
project will allow producers to self-serve online, although I 
should be clear, it is not an effort to push farmers onto the 
web or to replace our county office staff or the service they 
provide. Simply put, this is an effort to give our field staff 
the tools they need to serve and provide the best service 
possible to the farmers and ranchers.
    Finally, I would like to give a brief overview of the idea 
of the scope and benefit of the National Aerial Imagery Program 
or NAIP, the U.S. Government's sole provider of aerial imaging. 
Under NAIP, FSA produces digital aerial images for use by USDA, 
other governmental agencies and the private sector. In 2009, 
NAIP produced more than 148,000 digital aerial photographs of 
more than 2 million square miles on a budget of $29.9 million; 
$7.7 million of that budget came in partnership funds and FSA 
used $22.2 million of its own salaries and expenses funding to 
pay for the rest.
    FSA NAIP is vital for ensuring compliance, determining 
eligibility and planning for conservation in other Farm 
Programs. Farmers and ranchers themselves use the publicly 
available images as a tool for reporting of crops and reviewing 
acreage. NAIP is used by other Federal staff, local governments 
and the private sector as a tool to obtain reliable and 
accurate aerial imaging information for a variety of 
activities.
    This is an innovative government program whose benefits are 
far-reaching and unique. Without this program, FSA would be 
greatly affected and I am hopeful for the future of NAIP and 
what it can do and how it can benefit American agriculture.
    This concludes my oral statement, Chairman Baca and Ranking 
Member Fortenberry. I welcome any questions you might have. 
Thanks.
    [The prepared statement of Mr. Coppess follows:]

Prepared Statement of Jonathan W. Coppess, Administrator, Farm Service 
        Agency, U.S. Department of Agriculture, Washington, D.C.

    Chairman Baca, Ranking Member Fortenberry, and Members of the 
Subcommittee, I appreciate the opportunity to update you today 
regarding information technology (IT) issues facing the Farm Service 
Agency (FSA), as well as the Agency's ongoing work to modernize IT 
infrastructure and systems.
    Specifically, I would like to provide an overview of FSA's current 
IT systems and the challenges they present; outline for you ongoing 
efforts to modernize FSA's IT systems and related processes; and 
provide a description of the National Agriculture Imagery Program 
(NAIP) and its uses to FSA.

Overview of FSA's IT Infrastructure
    FSA delivers conservation, commodity, credit, energy, and emergency 
disaster programs. Most of these FSA programs are delivered through a 
network of state and county offices that are located in over 2,200 
rural counties. The offices are heavily dependent upon FSA IT systems 
to store, maintain and administer business data which is vital to the 
administration of FSA's programs.
    FSA's IT infrastructure provides vital information and capabilities 
to more than approximately 15,000 staff in field offices and our 
customers. Each year, these systems and supporting processes serve 
approximately 1.7 million farmers and ranchers nationwide, processing 
between $15 and $25 billion in program payments and loans. FSA's IT 
staff manage an extensive portfolio of IT systems and produce an 
average of one new processing application (an instance of software used 
to deliver programs to producers and automate processes for field 
staff) each week.
    As you know, FSA relies on some of the oldest information 
technology systems, both in terms of hardware and software, within the 
Department of Agriculture, and systems are largely inaccessible to 
producers via the Internet. While FSA's system for delivering Farm Loan 
Programs has been recently updated and represents a major success in 
modernization, FSA Farm Program payments to producers mandated by the 
2008 Farm Bill and other legislation depend upon the continued 
viability of an antiquated system.
    Outdated hardware remains one of the most pressing concerns. 
Currently, FSA administers IT operations using a computer system known 
as the AS400. FSA's vendor contract was awarded in March 2008 with four 
option periods to provide maintenance support through March 2013. FSA 
has been informed that the contract cannot be extended beyond this date 
since the human resources are becoming increasingly more difficult to 
retain and find in today's market. These skill sets are no longer 
taught in universities and the workforce who has them are retiring or 
moving to other skill sets at an increasing rate.
    The AS400 platform supports critical FSA business processes, which 
are key to FSA's ability to provide payments to producers. At best, 
based on current modernization efforts, FSA will continue to be 
dependent on the AS400 through 2013. It is essential that these 
computers remain operational until modernization can be completed. In 
addition to our risk in retaining the necessary software and operating 
system support resources, it is also extremely difficult to find 
replacement parts for these computers that are now more than 10 years 
old and are no longer being manufactured.
    These FSA hardware systems pose a significant risk of critical 
failure. While average life spans for IT system components are in the 
3-5 year window, depending on type, FSA is now running some hardware 
which has been actively deployed since 1984 (26 years) with the life 
extension made possible by the migration to slightly newer AS400 
systems in 2000 (10 years ago). Thus, FSA hardware is operating well 
beyond End-of-Life (EOL) by any reputable technology standard.
    The inherent disruptions caused by antiquated hardware systems 
affect producers' experience with FSA in a variety of ways. Decreased 
processing capacity results in increased time frames between producer 
applications for program benefits, and the distribution of those 
benefits. Acreage reporting remains complicated, and producers remain 
limited to doing business in specific local offices. With limited web-
based services, both FSA staff and producers continue to experience 
inefficiency in the delivery of programs. Producers continue to make 
more trips to county offices and endure longer wait times than they 
would need if using a more modern, web-based system. Producers are 
similarly limited from tracking their program participation and program 
payments online.
    While these legacy systems present major challenges in 
administering FSA Farm Program payments, I am pleased to report that 
FSA is already moving away from dated systems in the delivery of Farm 
Loan Programs. FSA has invested in, and is implementing, the Farm Loan 
Program Information Delivery System (FLPIDS) to modernize and improve 
the automated systems supporting the delivery of Farm Loan Programs. 
FSA has migrated or replaced applications from the AS400/S36 
environment with the initial Direct Loan Servicing web-based 
application of FLPIDS (which represents a portfolio of many 
applications in various stages of implementation).
    The new and updated automated processes which have deployed to date 
have supported a number of improvements in the delivery of FSA Farm 
Loan Programs. The average processing time for loans has been reduced 
from 41 days to 25 days, a reduction of 39 percent from processing time 
before implementation of FLPIDS began.
    In 2009, improvements as a result of investments in FLPIDS enabled 
FSA to support rapid delivery of American Recovery and Reinvestment Act 
(ARRA) funded Farm Loan Programs for Small and Disadvantaged Farmers. 
The modernization improvements and rapid updates to the existing 
software enabled FSA staff to obligate $173 million in Direct Operating 
Loans to small and disadvantaged farmers within 48 hours of funds 
apportionment. These improvements in the automation for Farm Loan 
Program delivery also resulted in the timely reporting of ARRA 
accomplishments and the delivery of web-based reports for informed 
decisions on loan making and loan management.
    Regarding the major IT shortcomings FSA currently faces in 
delivering non-Farm Loan Programs, the Agency is committed to 
modernizing all aspects of the IT systems and processes. FSA's 
modernization plan is a broad approach which includes a commitment to 
centralize data and update systems and processes, in concert with a 
move away from outdated hardware technologies. I believe current FSA 
efforts to modernize aging IT systems, when completed, will work in 
concert to successfully modernize FSA IT systems and ensure the 
viability of our payment processes moving forward--and I would like to 
outline that plan for you today.

FSA Modernization Initiatives
    FSA is committed to mitigating the long-term risk inherent to such 
an outdated infrastructure of hardware and software. FSA's work to 
modernize the IT infrastructure consists of two broad components.
    The first, termed ``Stabilization,'' involved securing web-based 
platform systems and putting in place systems which will work in 
concert with new technology to achieve the aforementioned results. The 
second, the Modernize and Innovate the Delivery of Agricultural Systems 
(MIDAS) project, represents the new technology, and the processes that 
will ultimately bring FSA IT up to speed with 21st century IT norms.

Stabilization and Resulting Service Delivery Improvements
    The Stabilization project was initiated in 2007 to address 
infrastructure problems that had adverse impacts on producers' day-to-
day business dealings with FSA in a time of unusually high farm 
reconstitution activity. There were two outstanding issues that 
required action. First, there was an urgent need to immediately respond 
to an unstable web-based environment. Beginning in November 2006, FSA 
began experiencing service outages for some of its web-based 
applications that support some farm programs. Several FSA business 
application software systems, operating on USDA's Common Computing 
Environment (CCE) web farm, began experiencing partial system outages. 
Problems with application software performance and telecommunications 
session connectivity continued to escalate through mid-January 2007.
    Second, as a necessary step towards IT modernization of the FSA 
program delivery environment, a contingency computing platform was 
required to provide for sustained business delivery if a catastrophic 
failure ever occurs on FSA's aging and obsolete computing platform.
    FSA work on the Stabilization program and the 29 initial 
Stabilization projects were completed in FY 2009. One of the projects, 
the Enterprise Reporting Performance Capability task, has been closed 
out in FY 2009; however, in FY 2010 it has been re-initiated as a new 
stand-alone project, Enterprise Data Warehouse (EDW). The EDW's key 
objective is to provide a consolidated source for data across the 
disparate legacy systems. Satisfying this objective will help the FSA 
improve management visibility across programs and provide local office 
staff the data necessary to better serve producers.
    The Stabilization work has resulted in a lower number of work 
stoppages, along with a significantly lower risk of stoppages occurring 
in the future. The projects completed under the Stabilization project 
mitigate the risk of catastrophic failure before the replacement of 
aging hardware in FSA. They also set the stage for a number of 
modernization initiatives which I will outline shortly, and ensure the 
viability of projects under MIDAS.
    It should be noted that in addition to the Stabilization efforts it 
will be necessary to modernize and upgrade the Department's Common 
Computing Environment (CCE) for the Service Center Agencies (FSA, Rural 
Development, and the Natural Resources Conservation Service). USDA 
needs to replace outdated components of the IT infrastructure, many of 
which have exceeded their expected life cycles, in order to reduce 
system vulnerabilities to failure and improve the performance and 
effectiveness of the shared infrastructure. These improvements will 
allow the SCAs to better serve program participants with a more 
flexible and reliable IT infrastructure. It will also allow for the 
first system-wide refresh of the CCE since the infrastructure was 
implemented in 2000. In addition, as the components of the CCE are 
replaced, USDA will implement a right-sizing process whereby 
configuration changes will be made to better support the delivery of 
current and future programs. As part of this process, the Department 
will strive to improve system security, reduce the long term cost of 
infrastructure services, and improve service reliability.

Modernize and Innovate the Delivery of Agricultural Systems
    MIDAS targets the IT systems used for FSA farm program delivery, 
specifically the streamlining of FSA business processes and development 
of a modernized long-term IT system and architecture supporting FSA 
farm program delivery. MIDAS will build from the initial groundwork 
laid under the Stabilization project. The two are not mutually 
exclusive, and will work in concert to transform FSA's delivery of Farm 
Program benefits, on behalf of the Commodity Credit Corporation (CCC), 
into a 21st century business model. FSA has created the MIDAS program 
to meet the needs of our customers and employees. The objective of 
MIDAS is to streamline FSA business processes and to develop an 
effective long-term IT system and enterprise architecture for CCC farm 
program delivery.
    This project will:

  <bullet> Provide capability to meet the increasing demand for 
        customer self-service;

  <bullet> Remove all of the legislatively mandated farm program 
        delivery software applications from the outdated AS400/S36 
        computing platform and put them on a suitable web-enabled 
        common business platform;

  <bullet> Engineer common business practices and centralize data 
        assets to support all farm programs;

  <bullet> Eliminate program-specific duplication of functionality and 
        non-integrated data; and

  <bullet> Accomplish increased compliance with modern internal control 
        structures and effectively implement improved IT security.

    Through MIDAS, FSA has established a program management office to 
provide the capability to acquire, manage, and deploy the MIDAS system. 
The program management office has been staffed with government 
employees and project management contractors to manage the 
requirements, system development, and organizational change management 
needed to implement MIDAS.
    MIDAS has improved business practices by analyzing farm program 
processes and identifying areas where immediate changes could 
significantly reduce processing time; implementation of a small number 
of these changes has already resulted in increased business efficiency 
for FSA staff. Additionally, FSA has expanded process improvement work 
by forming new integrated teams composed of program business analysts, 
field office users and technical staff to develop detailed requirements 
for the initial MIDAS deployment.
    FSA recently awarded the largest contract for development and 
implementation of the MIDAS system. This contract was initially awarded 
in December of 2009; however, a protest of the contract award was made 
to the Government Accountability Office (GAO). The protest was resolved 
successfully on February 25, 2010. The resolution of this protest will 
enable detailed project planning to be completed during FY 2010, as 
planned. One major contract remains to be awarded that will provide 
independent technical oversight over the development of the MIDAS 
system. FSA has received and is evaluating proposals for this contract, 
and expects it to be awarded during Spring 2010. These independent 
technical contractors will review the deliverables provided by 
development teams and will provide MIDAS, FSA and the Department with a 
check and balance mechanism to better ensure that the systems developed 
meets the farm program requirements and integrate with USA enterprise 
systems.
    When complete, FSA's IT transformation will produce an environment 
that is better, faster, safer and more flexible in supporting FSA 
program management and information delivery. FSA believes 
transformation of IT will ultimately equip and empower FSA employees to 
effectively and efficiently deliver services and support FSA programs.
    This transformed and modernized business environment will provide 
our customers with real-time access to reliable and secure information, 
and bring about opportunities to perform business transactions when and 
where they want it. Systems will be faster and timely processing of 
applications will be assured. IT systems will be able to provide more 
quality data at a faster rate, thereby improving service delivery 
across the board.

Other IT Modernization Solutions
    While MIDAS is our most pressing IT modernization need, FSA is 
engaged in several other IT modernization initiatives which are 
beginning to bear fruit. In particular, at the end of the past crop 
year, FSA implemented the National Receipts and Receivables System 
(NRRS) in support of the Federal Management Modernization Initiative 
(FMMI). This effort was designed to minimize improper and inaccurate 
payments, reduce administrative resources, and speed payments to 
producers.
    NRRS is a web-based application for managing payments under various 
FSA programs. This modernization initiative streamlined three 
previously separate legacy system processes allowing more effective 
disbursement of program payments. The implementation provided 
significant benefits to the producer through more timely and accurate 
payments. In addition, moving applications off the legacy system and 
into the web-based environment lays the foundation for MIDAS to further 
streamline business processes.
    This initial phase of NRRS fully migrated two FSA programs (Direct 
and Counter-cyclical Payments and Conservation Reserve Program) off the 
outmoded legacy system. The deployment of the web software releases was 
significant in scope. Initially, FSA experienced data integration 
problems between our new software and our legacy systems in the field. 
This registered some payments incorrectly and caused the FSA computers 
to suspend those payments for correction or validation, delaying them 
being sent to some producers. Some producers also received letters from 
FSA which presented incorrect information.
    FSA staff worked long hours to correct the errors, and payments 
were ultimately delivered to producers. We do not anticipate this 
problem in future years, although the integration problems we 
experienced do highlight the complicated nature of modernization. While 
we certainly may encounter other challenges in modernizing systems, 
it's important to understand that these challenges will be relatively 
small when compared to the issues that will arise if FSA continues 
using outdated systems and processes indefinitely.
    FSA has also been able to successfully deploy and implement new 
applications and services needed to implement the farm bill. These 
implementations include, for example, the Direct and Counter Cyclical 
Payment programs (DCP), Conservation Reserve Program (CRP), Average 
Crop Revenue election (ACRE) enrollments, Supplemental Revenue 
Assistance Program (SURE) program payment processing, Milk Income Loss 
Contract (MILC) program, and Dairy Economic Loss Assistance (DLAP). In 
addition, applications have been deployed for the permitted entity, 
adjusted gross income (AGI), direct attribution, payment limitation, 
combined producer, and producer eligibility services.
    As just one example of the benefit provided by this modernization 
of payment programs, FSA automation cut the time taken to process 
payments on the Tobacco Transitional Payments Program (TTPP) from 22 
hours in 2009 to 5 hours in 2010; and significantly cut down instances 
of payment issues following automation of the payment processes.
    While these projects are separate of Stabilization and the MIDAS 
project, it is crucial to note that without the foundations laid by 
Stabilization, these improvements in FSA payment processes would not 
have been feasible. As the MIDAS project builds on the initial 
Stabilization work, a modernized FSA will enable significant software 
deployments such as these, resulting in time and cost savings moving 
forward--in addition to the long-term network viability FSA badly 
needs.

Overview of the National Aerial Imagery Program
    Finally today, I would like to discuss with you the usefulness of 
the National Agriculture Imagery Program (NAIP) to FSA, USDA and others 
in the public and private sectors.
    NAIP provides digital aerial imagery to supplement ongoing efforts 
to utilize Geographic Information System (GIS) technology in 
administering programs. Since the early 1990's, FSA has used GIS to 
manage geospatial data and provide a means of linking geospatial data 
with tabular data. Under NAIP, FSA produces and stores digital aerial 
imaging to be used in concert with GIS data in the implementation of 
USDA programs. In addition to its use in FSA programs, NAIP has become 
the de facto base imagery layer for the nation, particularly for rural 
areas, and is praised by public and private users alike. In 2009, the 
program produced more than 148,000 digital aerial photographs of more 
than 2 million square miles of ground across the country. Imagery 
produced under the NAIP holds benefits for FSA, other USDA and Federal 
agencies, and private sector organizations.
    Within FSA, the development of a national database of aerial 
imaging helps to ensure FSA compliance and land record management 
requirements are met. It serves as a critical communication tool for 
reporting of crops by farmers and ranchers, who can access the images 
via their USDA Service Center. The imaging ultimately assists FSA staff 
in determining eligibility and planning for conservation and other farm 
programs.
    NAIP has also proven to be a cost effective means for other Federal 
and state agencies to acquire a digital image base, and has become a de 
facto standard for a number of agencies and organizations at the 
Federal, state and local level. A number of Federal agencies cost-share 
in the acquisition of NAIP imagery, including USDA's Forest Service and 
Natural Resources Conservation Service (NRCS), agencies within the 
Department of the Interior, as well as state governments. NAIP 
acquisition and management is coordinated through a number of inter-
agency planning bodies led by FSA, and with state governments through 
the support of FSA State GIS Specialists. In partnership with the 
vendor community, NAIP has allowed for technological innovation which 
has kept costs down, led to improvements in information content and 
quality and provided for the development of additional uses. FSA has 
seen a substantial increase in the number of programs that rely on the 
use of imagery for delivery since the inception of NAIP. The Common 
Land Unit (CLU) program relies on the NAIP product for maintenance of 
farm and tract records. The CLU and NAIP together provide a foundation 
for delivering programs consistently within the agency and across the 
Department with NRCS, and the Forest Service and are critical to the 
Congressionally-mandated data reconciliation effort between FSA and the 
Risk Management Agency (RMA). Conservation programs are increasingly 
using geospatial data to determine applicant eligibility and contract 
rates and NAIP is vital to this activity.
    Because NAIP is acquired in the public domain with no licensing 
restrictions, commercial entities and nonprofit organizations are free 
to access the imagery and add value with a wide range of services in 
support of the agricultural community and society at large. Farmers and 
ranchers themselves acquire the imagery for analysis of their own 
lands.
    Given this wide array of customers, it is important to note that 
NAIP serves as the United States Government's sole provider of digital 
aerial imaging. In USDA alone, NAIP is used by tens of thousands of 
staff, cooperators and approved insurance providers doing day-to-day 
operations in crop insurance compliance, conservation planning, 
forestry health evaluations, resource assessments and inventory 
management, assessment and monitoring of crop disease outbreaks, and 
crop statistical analysis. Without NAIP, FSA would not be able to 
perform acreage calculations for the delivery of programs nearly as 
quickly or easily, which would directly affect service to tens of 
thousands of farmers and ranchers. Federal staff in outside Agencies 
would be without a tool to obtain reliable and accurate aerial imaging 
for a variety of activities. Farmers and ranchers themselves, who 
utilize the imaging for similar assessment and cropland reporting, 
would be without a replacement source of information.
    NAIP is a strong, well run, and cost effective imagery acquisition 
program. Each year the program is administered according to a rigorous 
project plan that manages and documents planning, acquisition, quality 
assurance, and product delivery and distribution. A comprehensive 
status and problem-reporting system is in place to identify and 
mitigate problems and risks. A formal program evaluation is held each 
year to review issues, recognize lessons learned, and implement 
improvements for the next year. Imagery provided under NAIP is vital to 
the efficiency of FSA operations and the good business practices of 
thousands of farmers and ranchers across the country. Without this 
program, FSA's customer service would be experience a significant 
negative impact. I am committed to the future of NAIP and excited for 
its benefit to American agriculture, and I believe farmers and ranchers 
would echo that sentiment.

Conclusion
    FSA works hard every day to deliver vital farm programs across the 
nation. While that effort is hampered by an aging IT infrastructure, I 
know FSA staff are doing everything they can to get the job done, and 
get it done right. I am happy to see the initial benefits of our IT 
modernization efforts already taking shape, as I have outlined for you 
today. I am excited for what the future holds as the MIDAS project is 
fully implemented; and I am ready to work hard to use important 
technology such as that provided by the NAIP to benefit farmers.
    Chairman Baca, Ranking Member Fortenberry, Members of the 
Subcommittee, this concludes my statement. I will be happy to answer 
your questions.

    The Chairman. Well, thank you both for your testimony this 
morning and I will begin by asking the first question. Thank 
you very much, Mr. Smith, for your testimony and Jonathan 
Coppess, as well.
    My question is why is the equipment so old and why has it 
taken us so long to begin to do something about it, and where 
are we now? I mean we talked about the telephone equipment and 
the 10-24 year old equipment, and yet, we need new technology, 
new ways to communicate, and ways to be cost-effective, too.
    Mr. Smith. Yes, sir, there are two points, two parts to the 
question. One, the Common Computing Environment appropriation 
that we received over roughly a 5 year period was used to 
consolidate three Service Center Agencies down from 
approximately 9,000 offices down to the roughly 3,000 we have 
today. At that point, we did refresh the majority of the 
infrastructure of those foundational elements I spoke of 
earlier. Unfortunately, that started aging the day we put it in 
and when the CCE appropriation went away from the Department, 
at that point we have about a $60 million annual bill that we 
needed to sustain that infrastructure, and refresh servers on a 
4 year basis, PCs on a 4 year basis, telephone systems on a 10 
year basis. So with the infrastructure we have had some success 
in the agency's funding. Computer refreshment, that part of the 
portfolio is newer than others.
    The second part that I would add is the technology within 
the Farm Service Agency Program areas is on 1980s-based 
equipment, and that has become very, very dated. The complexity 
of those programs and moving that to a web-based modernization 
profile was begun through the CCE appropriation, but it was not 
finished. And at this point that is what we are trying to do is 
to put those programs into a modern consumer-off-the-shelf 
technology application that will more easily allow us to change 
as programs change and legislation changes.
    The Chairman. What is the timeline to complete this?
    Mr. Smith. For the Farm Service Agency Modernization, I 
will let Mr. Coppess answer.
    Mr. Coppess. All right, so the MIDAS project, we are 
looking at a timeframe of funding through 2013, and that final 
contracting effort is in 2014. One of the big things we are 
looking at on MIDAS is our maintenance contracts end in 2013, 
and so we have a certain definite concern out there of getting 
ourselves modernized and up to speed in time. We are looking at 
another farm bill coming down the line in the near future and 
we need to be in this more modern environment to write the 
software for complex programs, and be able to better deliver on 
the farm bill that you all write.
    The Chairman. Okay, okay, thank you.
    Let me ask another question, Mr. Smith, as you know, the 
SNAP Program uses electronic benefit transfers to variable 
systems. Can you talk about the EBT has improved delivery and 
has it lessened the fraud and abuse?
    Mr. Smith. Yes, sir, I believe it has made the delivery of 
SNAP benefits very efficient and effective and at almost any 
store in this country that takes EBT, an individual can just 
pull out a card just like a credit card or a debit card and use 
that to get benefits. It has helped in reducing fraud 
demonstrably because all those transactions can be put into a 
data store and mined so we can look for anomalies that might 
not be visible to the naked eye. By taking those roughly two 
billion transactions across the 50 states and the territories 
that are in it and the District of Columbia, we can look for 
patterns of misuse, fraud or abuse.
    The Chairman. Okay, I know that there is one other question 
that I have for you, Mr. Smith. The Administration has made a 
commitment to roll-out broadband across the country with $2.4 
billion funded through the American Recovery and Reinvestment 
Act. Do you have any estimates of what this might mean for 
increasing farmer and rancher participation in USDA programs?
    Mr. Smith. Yes, sir, I believe that will have an 
extraordinary impact. One of the things that Mr. Coppess and 
myself have been doing, and we will continue to do, is carry 
out listening sessions with farmers and producers around the 
country. One of the things we hear over and over again is that 
yes, in cases we want to be able to self-serve and look for the 
information in which we are doing business with the USDA, but 
we don't have the capability because we don't have a broadband 
connection. I believe that it will have a major impact for 
individuals across the country to access our programs, not to 
mention the economic engine for the nation: for people in some 
of the farthest parts of the country to sell to others; for 
creativity and ingenuity; for educational opportunities. I 
think it is going to be a major impact for the nation.
    The Chairman. Okay, thank you. I know that I have 
additional questions that I would like to submit for the 
record.
    So I will turn it over to the Ranking Member now for 
questions.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    Mr. Smith, I believe you alluded to the system as being 
fragmented. Before coming to Congress, I had served a term on 
the city council back home. This was in the early days of the 
advent of the Internet. One agency was readying itself to setup 
its own separate website. I was a very strong advocate for 
centralizing the entire city government in one place with sub-
branches to the various agencies. Now, recognizing there are 
different service delivery models that may be incompatible in 
terms of having one platform for the delivery of those models, 
can you point to the ultimate goal in terms of solving this 
fragmentation problem. You talked about how we need to move to 
a web-based system. Is that the core element of what you are 
doing?
    Mr. Smith. Yes, sir, I mean one, on its face, the cost-
effectiveness, the security and the disaster recover 
capabilities we get out of consolidating and then protecting 
all of our information assets in a lesser number of places is 
huge. I can't understate that. It gives us the flexibility to 
react when there are problems. It provides the ability to 
communicate with one voice on all programs across USDA. It also 
allows us to better serve the farmer, the rancher, those people 
in rural America to self-serve those programs. Right now we 
have fragmentation within some of the systems within the Farm 
Service Agency. So, a farmer who farms in multiple counties 
cannot have a view into or that employee does not have a view 
into all that farmer's holdings. So, just from an efficiency 
standpoint within the Farm Services Agency, it will be large. 
So the last point I would make is a security one that I spoke 
on. We are under a constant threat from cyber criminals and 
nation states. The entire Federal Government has been facing 
this problem for a number of years, and we must secure the 
information that we have so that there is no misinformation or 
impact to the varying economy, to the privacy information that 
we hold on behalf of those 1.7 million producers, and all those 
rural Americans who do business with us, and third, it is the 
food supply so it is very important to us.
    Mr. Fortenberry. The second issue is that it would be 
important, and you just touched upon it, but we are striving 
for what the potential benefit is for increased modernization 
of the technology, less wait times, quicker loan processing.
    Mr. Coppess. Yes, certainly to add to what Chris was saying 
and to emphasize that when we talk about MIDAS modernization, 
it is more than just the equipment. It is more than just the IT 
infrastructure. It is an entire way to utilize that to improve 
our business processes, our paperwork, our handling times, the 
steps that it takes to get from the signup to the payment. So 
it will certainly decrease wait times, paperwork and effort on 
county office staff, on farmers and ranchers that come in. So 
it is a big process that underlying all of that is getting it 
into this more centralized web-based system that allows better 
access across counties and for farmers across the country. So 
it is definitely going to help that out.
    Mr. Fortenberry. Let me make sure I understood you 
correctly. The major components or the major fixes that will 
lead to the outcomes that you just named will be complete by 
2013?
    Mr. Coppess. Yes, we are, well, our modernization will 
probably never--we have to continue to keep going on that so 
that the program, the MIDAS Program is in the 2013-2014 
timeframe, so our final contracts will go, will wrap up in 
2014, is the goal now.
    Mr. Fortenberry. The Chairman alluded to the fraud, 
particularly in the SNAP Program. That has been reduced 
significantly from the old food stamp program. I believe the 
old number was six percent fraud and I think that is down. It 
is perhaps the last number we had if I recall correctly was it 
has been reduced perhaps by as much as 50 percent. Has it been 
reduced further? Do you have a specific number?
    Mr. Smith. I don't have that exact number. I would like to 
get that for you and get that to you in writing.
    Mr. Fortenberry. I think that is an important number to 
have out in the public sphere. It is important to talk about, 
again, in terms of the potential in benefit from this very 
large investment of taxpayer dollars.
    Mr. Smith. Sure.
    Mr. Fortenberry. Thank you, Mr. Chairman.
    The Chairman. Thank you. I will ask some additional 
questions and then we will wrap it up with this panel and then 
move on to the next panel.
    Chris or Jonathan, do you believe that the CIO is 
adequately funded and staffed to provide the support needed for 
USDA's IT Modernization Program? This is your pitch, your 
opportunity.
    Mr. Smith. Yes, we have attempted to be very thoughtful and 
deliberate about the needs to carry out this modernization 
effort. As we have some of these complex systems coming 
together, the Financial Systems Modernization, the MIDAS 
initiative, Web Supply Chain Management, Public Health 
Infrastructure Service, a lot of those things I talked about, 
or were in my testimony, we are on track and there are going to 
be adjustments in course. We are not going to be perfect on 
this, and I think that is one of the mistakes we made in the 
past was not coming up and saying when things were not going as 
well as they should. So I believe we have the resources for the 
plan we have in place right now. I think one of the 
opportunities for us as we move forward and work together on 
this is that if we can clearly identify the funding stream for 
a given IT initiative, we can be that much more accountable, 
that much more transparent. My organization has put a lot of 
effort into building sophisticated cost models that show the 
activities where we are spending against what projects, and 
then benchmarking that to industry to ensure that we are 
getting the best value for the American people day in and day 
out on these projects. But why I started off with some of the 
challenges, we have real challenges as we go forward, but we 
have also got a strong team that we have built. Jonathan and 
myself and those other mission areas are working together hard 
at this. We have a strong governance structure we put in place, 
so I am confident at this point that the funds that we have are 
right.
    The Chairman. Okay, thank you.
    Let me follow up. Can you describe for the Subcommittee, 
the current staffing level at CIO? Has that expanded the 
ability for data collecting and reports on race, gender, 
ethnicity? Has broader data collection been implemented for all 
agencies serving farmers?
    Mr. Smith. The first part of the question for the staff 
that is under my direct control, it is about 1,000 personnel. 
The bulk of them are actually in the field delivering service 
to the three SCAs in other parts of the USDA, so my compliance 
and policy group is roughly 75 and the rest of that is directly 
in service delivery.
    In reference to the second part of your question, Jonathan 
do you have an answer to that or do we need to go back with a 
written response?
    Mr. Coppess. I can provide more detail in a written 
response. One thing that I would point out that this is a 
continuing effort to improve across the agency and, of course, 
the Department. We have established a very important 
partnership and working governance structure as Chris 
mentioned. And one of the struggles we have is being able to 
transition from individuals that have worked for a long time on 
the 15-20 year old technology into 2010 and get new skill sets 
and the capability to run on these web-based systems. I think 
it is going to be a continual work in progress and something 
that we will have to watch, monitor and improve as we go.
    The Chairman. Okay, thank you.
    Mr. Coppess, since you have taken over as FSA 
Administrator, how many instances have there been of computer 
issues preventing the proper administration of FSA Programs?
    Mr. Coppess. I could guess at a number of instances, I 
think the most prominent that we have seen is this past fall, 
some new issues we had in making payments in the Direct Payment 
Program and Conservation Reserve Program. And that was really 
an example of when we talk about there being some rough roads 
as we renovate our systems and we improve and modernize. You 
are going to be trying to fit the new, and use the old, and you 
have as we go into those centralized web-based applications, we 
are still 2,200 offices with these 20+ year old systems in each 
one and they are not connected, and so we are running into some 
problems. What I would like to point out that I was very 
impressed with is that as we ran into payment problems, our IT 
staff was incredibly responsive, Chris' staff incredibly 
responsive in finding these problems, isolating them, and 
chasing down each and every one of them piece by piece, and 
resolving them so that next time we don't see the same problems 
again. So, it is never, as Chris says, it is never going to be 
a perfect effort, but we have worked incredibly hard in chasing 
down problems where they exist and fixing them as we go, and 
learning from those issues, and just working that back into our 
processes and our efforts.
    The Chairman. Thank you.
    Mr. Coppess, do you have any figures on the current level 
of fraud or waste in programs the FSA delivers?
    Mr. Coppess. I do not have those figures with me right now. 
We can look into it. I know we track improper payments and 
other issues but I do not. I have not seen information that 
indicates a high level of fraud in our program payments.
    The Chairman. All right and then the final question, do you 
believe that better use of technology could help to cut down 
the incidence of fraud?
    Mr. Coppess. I think it is, certainly, that is always 
something that can help. It will more than anything help ensure 
that we get the right payment to the right producer at the 
right time, and that is the main goal. I don't think we see the 
fraud necessarily as a concern as much as being able to timely 
and properly deliver our program payments.
    The Chairman. Okay, thank you.
    I will turn it over to Mr. King to ask a question at this 
point.
    Mr. King. Thank you, Mr. Chairman.
    I thank the witnesses and I will start first with Mr. 
Smith. Can a producer access their own files electronically?
    Mr. Smith. Thank you, Congressman King, to a limited 
extent, yes. We don't have nearly the amount of information out 
there that we would like to have. There are two programs right 
now that people can self-serve on, and there is information 
that they can get if they have signed up through our E-
authentication to reach it. But, a major driver for this 
modernization effort is to give people information, access to 
information securely from wherever they may be, the farm, the 
fields, their home or office.
    Mr. King. It will allow them also to do some filing 
electronically?
    Mr. Smith. Yes, sir, that is the full intent. We have been 
in the series of listening sessions, as I said earlier, and we 
plan to be in roughly 15 other states over the next 8 weeks 
asking farmers just that question, ``Do you do home banking? Do 
you do your insurance online? Is that something you would like 
to get?'' And I would add precision agriculture, in many cases 
the farmer is more sophisticated than we are in our offices, 
and so the ability for these GIS systems to require back to us 
acreage reporting, yields and those types of things, the 
possibilities are pretty intriguing to us.
    Mr. King. I would submit that farmers would be very, very 
glad to be able to access everything they do electronically 
because then they can operate off their own schedule rather 
than the schedule of the office being open. Yet, if they are 
not technically astute, they will become so from a time factor. 
If they wake up in the middle of the night and worry about you 
guys, they could just get right on the computer and resolve at 
least the filing issues and the informational issues, and do 
their planning in sequence as it comes to their mind rather 
than when they come to the office. I hope we can get there. I 
have seen the private sector get there very, very quickly.
    What about the NRCS and FSA, are there duplications there 
that can also be eliminated electronically?
    Mr. Smith. I believe there is a great deal of overlap 
between the programs and the customers are in many cases the 
same, so yes, I believe we have opportunities for streamlining 
the process. I mean that is one of the things that Jonathan 
spoke about a little earlier. As we are building out these 
systems and modernizing, sometimes there is a long trail until 
you get the functionality out in the customers' hand. We have 
been doing a lot in FSA, and NRCS is now doing some of this 
also around looking at business processes. How can we remove 
steps that are not of value, add to that and ease the pain 
points for our staff and the customer out there in the field, 
so there is a lot of opportunity across both those programs 
with our customers.
    Mr. King. Thank you, Mr. Smith.
    I would turn to Mr. Coppess and if he has another comment 
to add to that I would pause for that and then I have a follow-
up question.
    Mr. Coppess. Sure, and one of the important things that 
Chris had mentioned is that here you get these modernizing 
systems to fix some of the businesses processes. Whether it is 
NRCS or RMA, in particular with the Risk Management Agency and 
all we are doing in these Disaster Programs, the ability to 
communicate not just across county offices and not across the 
state lines but amongst the agencies with the information, 
provide that into these more complex programs to have that 
information in there and, of course, we work very closely with 
NRCS on technical systems. So, as we are modernizing and as we 
get all the systems together, you will see better functionality 
across the agencies. But I do want to stress that there is a 
very important component that we, in our county offices and our 
staff out there, what they provide in helping to educate on the 
programs and go through some of these complex steps, and so 
what we really want out of this modernization effort is more 
flexibility for the farmer. If you want to do acreage reporting 
or up-ledger your harvest information online, perfect. If you 
have questions about it, we want that county office to be a 
better service center so that when you come in with questions 
and work with that staff, it doesn't take as long, the answers 
are there and the information is there.
    Mr. King. Thank you, Mr. Coppess, and this is a follow-up 
on one thing that caught my attention when Mr. Baca brought it 
up and that is the reporting for race, gender and ethnicity. Do 
I take it that you expect to be able to get moved up technology 
so that can be easily identified and categorized?
    Mr. Coppess. Yes, I think that, and all information across 
the board as we centralize all of our data and have the ability 
that you don't have it just fragmented across areas and 
programs, the ability to pull all personnel and run those 
reports and have that information would be improved 
drastically.
    Mr. King. And then do we actually have that Affirmative 
Action Program that would, let me say, benefit those categories 
that we are discussing?
    Mr. Coppess. We have the Equal Employment Opportunity 
absolutely.
    Mr. King. Distinct from Equal Employment, do we actually, 
do we have a de facto Affirmative Action Program?
    Mr. Coppess. I am not aware of a de facto Affirmative 
Action Program but we can explore that a little bit further and 
get you maybe a better answer in writing.
    Mr. King. If I could just clarify, as I understand, this 
goal is to keep data on race, gender and ethnicity so that we 
can assure that we are providing equal opportunity which I am 
emphatically in favor of and that is our goal and our mission, 
as I understand it.
    Mr. Coppess. That would be one part of it, yes.
    Mr. King. Thank you very much. I thank both the witnesses 
and I thank you, Mr. Chairman.
    The Chairman. Thank you very much, Mr. King.
    If I may follow-up on a question that you asked when we 
were talking. When we are looking at a system, do we have 
systems that can talk with one another? Can you please respond 
to that because Mr. King was right on track, and I just wanted 
to follow-up to make sure that we have the system that can 
dialogue with one another?
    Mr. Coppess. Well, we certainly that is where we are going. 
I mean that is what we want to be able to do. Do we have all of 
that now? Absolutely not. I think that is some of the things we 
have struggled with in implementing some of the new Disaster 
Programs like SURE, the Supplemental Revenue Assistance 
Payments program, for example, being able to communicate with 
the Risk Management Agency on crop insurance and indemnity 
payments, overall, and Chris may want to touch on this more.
    Mr. Smith. Mr. Chairman, in two parts, we have been working 
hard to make sure that all programs across USDA can speak 
together. That is the unified communications approach that I 
have talked about where we are combining down from 27 e-mail 
systems. And one is not just e-mail, it is chat, instant 
messaging, web-collaboration, meetings video-teleconferencing 
and by the end of the summer we will have about a thousand 
endpoints where video-teleconferencing is in place that will 
enable disaster recovery action so the Department of 
Agriculture has better collaboration and improved productivity. 
And then, the second part is back to farm programs, for 
instance, and how that talks to the financial system to make 
sure that we have one set of books and there is one version of 
those books. We have been very deliberate in the planning for 
that and so the FMMI modernization and the MIDAS modernization 
are, in fact, going to be in the same technology, so it is not 
an interoperability or an integration issue. It is in that 
enterprise resource plan, so again, we are always looking at 
where there are opportunities to do that and then if we don't 
choose the same setup technologies in our operation is a key 
driver. We cannot have stovepipes anymore.
    The Chairman. Okay, thank you.
    I will call on Mr. King for an additional question.
    Mr. King. Thank you, Mr. Chairman, and just to come back on 
that and, Mr. Smith, if you have agencies within the Department 
that disagree on what technology that might cause you some 
problems with the interoperability that you have discussed, are 
you the one then that makes that call or who does make that 
call? Who has the authority, the Department level or the agency 
level?
    Mr. Smith. Yes, sir, that authority resides with my office, 
but we do try to be very collaborative as we do this and make 
sure we understand the unique needs of any business line before 
we make those types of decisions. I think it is extremely 
important that we do, from an architectural standpoint, have a 
solid blueprint to what it is that we are building. So on that 
note, we have actually undertaken a study where for the first 
time we will have a map of all of the technologies by bricks, 
what we call bricks and patterns. Basically if you think about 
the blueprint in building a house, the bricks and the 
foundation upon which we build we will hang that out. Right 
now, we have done it in the security and the information 
management area and we will have about seven other areas so 
that we can talk at the technical level and also at the 
business level. I would just add that the approach we are using 
for MIDAS and Farm Services modernization has the business 
person in the lead and lines the technology person up next to 
them, but the business has got to lead this. We have to have 
the right business process, the right measures so we can show 
exactly what it is that we are changing, and bring the 
technology in line and make it agile enough that it can change 
as programs and law change.
    Mr. King. I will note that the agencies have noted that 
statement and they will be very cooperative with you and still 
make their case. Thank you very much.
    Mr. Smith. I appreciate your support, Representative.
    The Chairman. Thank you very much, Mr. King.
    Next, I will call on the Ranking Member, Mr. Fortenberry.
    Mr. Fortenberry. Just one other quick question, gentlemen, 
before you were going back to the conversation we had a moment 
ago regarding fragmentation. Can you explain the chain of 
command regarding the implementation of the new technologies?
    Mr. Smith. The authority falls under Clinger-Cohen for 
capital planning, so any investments that are made within the 
Department of Agriculture should and are supposed to come 
through the Office of the Chief Information Officer. That 
individual within the Department is given that authority and 
reports to the Assistant Secretary for Administration as well 
as the Secretary. We also have some authority that you all have 
given us for any expenditure over $25,000 in information 
technology investments. We have something called an acquisition 
review process. All of those come through my office so we own 
the oversight of that. I would again say though that we do want 
some of the entrepreneurial spirit close to the business lines 
to get the technology in place that meets the needs of the 
business, so it is a problem.
    Mr. Fortenberry. Of fragmentation and that is why I think I 
agree with you to allow for innovation at the lowest level, but 
to understand how that might be implemented across systems so 
that it is most efficiently utilized is important. So is there 
a problem here with that authority that is something that we 
may need to look at?
    Mr. Smith. I don't know that it is a problem but it makes 
it challenging, and that is with the authority and that 
alignment. I would go back to a statement I made if we have 
clear lines of funding for IT projects it allows us to be that 
much more accountable and that much more transparent.
    Mr. Fortenberry. So the appropriations makes the policy?
    Mr. Smith. I wouldn't go that far but----
    Mr. Fortenberry. Well, that happens a lot around here but 
we will leave it at that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much and that concludes the 
question by those of us here, but there are additional 
questions that we have that we will submit for your responses. 
I want to thank you, Mr. Smith and Mr. Coppess, for coming 
before us and giving us the insight of what needs to be done, 
what is currently being done.
    Mr. Smith. Thank you very much.
    The Chairman. Well, next we will bring on the next panel. 
We would like to call up panel two. We would like to welcome 
each of these panelists up here.
    Mr. Roger Johnson who is President of the National Farmers 
Union in Washington, D.C.; Mr. Mike Mayfield on behalf of the 
National Association of Farm Service Agency County Office of 
Employees from Pulaski, Tennessee; and then Mr. Craig Turner, 
President of the National Association of Farmer Elected 
Committees from Matador, Texas; Mr. Will Craig, President of 
the National States Geographic Information Council from 
Minneapolis, Minnesota; and Mr. Jim Krosch on behalf of the 
National Association of Conservation Districts from Morris, 
Minnesota. We will begin with Mr. Johnson. You have about 5 
minutes to give your opening statement, Mr. Johnson.

STATEMENT OF ROGER JOHNSON, PRESIDENT, NATIONAL FARMERS UNION, 
                        WASHINGTON, D.C.

    Mr. Johnson. Thank you, Mr. Chairman and Members of the 
Committee.
    For the record, my name is Roger Johnson, President of the 
National Farmers Union, an organization that has been around in 
this country for more than 100 years and represents family 
farmers and ranchers. Thank you for the opportunity to testify 
on an issue that some might see as mundane, but is of 
extraordinary importance in an industry that is always looking 
to figure out how to do things more efficiently and more 
effectively. Having the right kind of IT solutions is very 
important. Much of what is in my written testimony has already 
been discussed in some detail by the former panel, so with your 
permission I am going to hit just a couple of highlights and 
then maybe turn to some of the comments that we have received 
from members since our written testimony was turned in that are 
experiencing these issues out in the field.
    We are, in the industry of agriculture, always being asked 
to do more with less. The same thing is true with government 
and certainly appropriately so. In order to really do a job 
well, we need to have good tools, and as you heard in the 
earlier panel, we are kind of in the dark ages with IT at the 
USDA. In fact, that is the precise language that several of the 
folks from the field reference or used when they described 
their ability to interact with the USDA.
    The USDA has a complex suite of some 30 different program 
applications based on a distributed technology platform that 
relies on antiquated computer code known as COBOL. Man, that is 
a long, long time ago since I have even heard people talk about 
COBOL. It is a real problem.
    There are a number of reports of information now being 
entered manually because the computing system is simply not 
able to accommodate things. Standard operating procedures are 
being written on a piecemeal basis. Data transfers between 
agencies are simply not possible without doing it manually, and 
so we have a system that is outdated. It is unstable. It is not 
cost-effective for the delivery of Farm Programs. In spite of 
that, some $\3/4\ billion since 2002 has been spent on these 
systems and discretionary spending as you all know is always 
very, very difficult to get and to get applied in a fashion 
where it can give us the results we want. It is an expensive 
system and it is an outdated system.
    In some states, FSA actually goes to manual procedures. The 
SURE payment, SURE Program is one that was reported by some of 
the folks out in the field, they actually are taking data from 
RMA and manually inputting it into an Excel spreadsheet in 
order to calculate payments, and then in some cases, issuing 
those checks manually, as well.
    Acreage reports are based on the same method that was used 
in the 1960s. The only real difference is that they now get 
uploaded to a computer system.
    GIS, I talk about that on page four of my testimony. There 
is an awful lot of use for programs that would involve GIS and 
certainly, we need to get to the point where farmers can just 
get on these systems and automatically transfer with a touch of 
a keyboard or a PDA or whatever to get not only that 
information to interact back with USDA but also to report and 
do those sorts of things.
    IT advances by leaps and bounds, the technology itself, but 
obviously the government is quite a bit behind. We heard words 
like enormous consequences if something happens. We heard words 
like catastrophic failures. We heard people talk about USDA 
having to resort to half-measures in order to implement the 
2008 Farm Bill because the technical capabilities simply 
weren't there. It is not only a hardware issue. It is a huge 
software issue, both of them being significantly outdated.
    And with that, Mr. Chairman, I will conclude my testimony, 
and will be pleased to respond to any questions.
    [The prepared statement of Mr. Johnson follows:]

Prepared Statement of Roger Johnson, President, National Farmers Union, 
                            Washington, D.C.

    Chairman Baca, Ranking Member Fortenberry and Members of the 
Subcommittee, thank you for the opportunity to testify today about the 
status of information technology at the U.S. Department of Agriculture 
(USDA). My name is Roger Johnson and I am President of the National 
Farmers Union (NFU). NFU is a national organization that has 
represented family farmers and ranchers and rural residents for more 
than 100 years. NFU members understand the critical role modern 
information technology systems play in the efficient and effective 
delivery of farm programs.
    New technological solutions are available and USDA has been 
pursuing significant modernization in recent years. Yet, we know that 
progress has been slow. Advances that could be made in areas such as 
data storage and sharing, geographical information systems (GIS) and 
reduced service delivery continue to be impeded by a system has not 
adapted to the times. In today's competitive global marketplace, 
American farmers are being asked to produce more food, fiber and fuel 
with greater precision and efficiency, and they are answering the call 
by investing in new technological systems. As the primary agency tasked 
with providing support and assistance to farmers, it is only logical 
that USDA would do the same.
    With advances in web-based technology and geographical information 
systems, opportunities exist for USDA to realize gains in efficiency 
and effectiveness by providing producers greater ability for self-
service while simultaneously reducing costs, paperwork and travel time 
required to apply for programs and service contracts. Coordinating web-
based efforts to provide services to producers will require a new 
approach, new technology and new ways of managing data. USDA has begun 
this process, but much work remains to be done.

Current Status
    The current status of the USDA Farm Service Agency (FSA) computer 
systems remains unstable and has resulted in service disruption to 
producers. This is despite the fact that Congress has made significant 
investments in USDA's Common Computing Environment (CCE). Currently, 
USDA runs a complex suite of 30 program applications based on a 
distributed technology platform that relies on antiquated computer code 
known as COBOL. Program data is kept on computers at county-based 
service centers and fed into central mainframe computers to process 
program information. This significantly impedes data sharing across 
boundaries, whether programmatic, geographical or organizational in 
nature. This IT infrastructure impacts interagency coordination in 
program delivery, impacts workload balancing and reduces capacity for 
customer service. The system has also proven sluggish to adapt to new 
programs. As the 2008 Farm Bill programs are implemented, field offices 
have often found frustration as systems have not been ready, data 
transfers between agencies have had to be done manually and standard 
operating procedures have been written piecemeal.
    Producers have reported that the system is slow to respond when 
legislative changes are made. The sign up for 2008 SURE program 
payments is a good example. Sign up recently began for 2008 SURE 
payments, but a number of producers reported development of the 
programs designed for them took a long time. This resulted in a sign up 
window so small that many missed their opportunity to apply. Farmers 
and ranchers struggle to maintain the records and necessary 
documentation during the lengthy process to develop a working system.
    The current system is outdated, unstable and is not cost-effective 
in the delivery of farm programs. Over the past few years, the system 
has become unstable several times resulting in a near shut down in 
operations across the country. While temporary solutions have 
maintained system operations, other failures, perhaps catastrophic, are 
likely as the system is continually overburdened. Complete failure of 
this struggling system would have enormous consequences for commodity, 
conservation, crop insurance and disaster program delivery across the 
nation.

Funding
    USDA has received significant funding for information technology 
systems. Congress has provided over $700 million since 2002 for the 
USDA CCE. In addition to regular appropriations, the American Recovery 
and Reinvestment Act provided an additional $50 million to maintain and 
modernize the information and technology system.
    The Appropriations Committees have been trying to find a way to pay 
for the necessary upgrade for several years, but with all of the other 
demands for discretionary spending it has nearly impossible to provide 
the level of funding needed.
    The Government Accountability Office (GAO) has reported that 
maintenance of the existing CCE system is costly because of aging and 
obsolete machines for which replacement parts are neither widely 
available nor cheap to procure. Creation and maintenance of programs is 
also complicated by the fact that few programmers exist with knowledge 
of the COBOL programming language. As a result, a large portion of 
USDA's CCE funding has gone to maintaining an increasingly expensive 
but outdated system.
MIDAS
    USDA's current effort underway to update and modernize their aging 
computer system is known as ``Modernize and Innovate the Delivery of 
Agriculture Systems,'' or MIDAS. The goal of MIDAS is to provide better 
service to customers in today's Internet age through web-based 
technologies. MIDAS holds great promise in significantly modernizing 
FSA's technology infrastructure, but managerial and logistical issues 
must be addressed to ensure it is implemented in a smooth and timely 
manner.
    In 2008, FSA completed a comprehensive organizational review and 
assessment that found MIDAS lacking in the areas of project management, 
intra-agency coordination, human capital planning and change 
management. In 2008, the GAO reviewed progress on implementation of 
MIDAS after USDA's decision to accelerate implementation from a 10 year 
to a 2 year schedule. GAO found that managerial and logistical 
weaknesses existed that made uncertain the delivery of MIDAS within 
acceptable cost schedules and timeframes.
    The GAO report recommended measures for USDA to increase 
coordination between the Department's and FSA's chief information 
officers to develop specific plans for tracking user-reported problems 
and to clearly define roles. The GAO also recommended a full assessment 
of USDA's investment in MIDAS including establishing effective and 
reliable cost estimates and a realistic and reliable implementation 
schedule.

Geospatial Data
    In an effort to provide information to a variety of stakeholders, 
USDA maintains a vast database of aerial imagery and other geospatial 
data. Administration of these efforts requires robust data management 
facilities and procedures, expertise in image collection and 
organization, effective quality assurance measures and the capability 
of delivering the data in formats that meet customer requirements.
    Updated information technology systems could greatly reduce the 
delivery time of current imagery acquired for use in farm programs. The 
computer interface with geospatial data at the field office level is 
critical for USDA employees to be able to access needed resources. 
Current deficiencies in the field office computer system often make 
accessing geospatial data slow and cumbersome if not impossible. The 
advanced application of geospatial data in servicing contracts would 
greatly enhance producer use of GIS in precision agriculture. While 
producers could provide GIS information from their equipment, the 
information would be lost on a USDA computing system not equipped to 
handle it. Similarly, geospatial information could also be utilized in 
making disaster assessments and payments were it readily available.

Closing
    Updating USDA information technology system is a task for which 
there may be no finish line in sight. IT continues to advance by leaps 
and bounds, and keeping up with the latest technologies is a constant 
and costly challenge across all sectors. It is perhaps most acute in 
the public sector where change is slow and operating budgets remain 
very tight and are receiving greater scrutiny. Much has been done in 
the past decade to position USDA to make the next technological leap.
    We support continued investment in USDA's IT overhaul. Updating the 
system to 21st century standards will not only improve USDA's business 
practices, it will also result in better customer service for producers 
that will ultimately be good for American agriculture as it seeks to 
meet the challenges of providing for a growing population. While work 
still remains to get the job done, we are confident that with proper 
management strategies, adequate resources and proper planning USDA can 
meet the challenge of harnessing information technology in a way that 
will benefit our nation's farmers and ranchers.
    I thank the Subcommittee for the opportunity to testify today and I 
look forward to your questions.

    The Chairman. Thank you very much, Mr. Johnson.
    Next, we will have Mike Mayfield.

  STATEMENT OF MIKE MAYFIELD, NATIONAL LEGISLATIVE CHAIRMAN, 
 NATIONAL ASSOCIATION OF FARM SERVICE AGENCY OFFICE EMPLOYEES, 
                          PULASKI, TN

    Mr. Mayfield. Mr. Chairman and Members of the Subcommittee, 
my name is Mike Mayfield and I appreciate the opportunity to 
testify before your Committee today.
    I have been involved in agriculture for my entire life. I 
am part of a fourth-generation farm family and I have been 
employed by the U.S. Department of Agriculture, Farm Service 
Agency for 24 years as a County Director in Giles County, 
Tennessee. I am here representing the National Association of 
Farm Service Agency County Office Employees, and I am pleased 
that our President, Myron Stroup, from Kansas is also here with 
me.
    The National Association of Farm Service Agency County 
Officer Employees is an organization that represents the 
county-level employees of the Farm Service Agency. NASCOE is 
proud to represent 85 percent of all county office employees. 
In anticipation of today's hearing, NASCOE surveyed our 
membership with three pertinent questions.
    Is the current IT FSA infrastructure meeting your 
professional needs as an employee? Seventy-six percent said no.
    Have you seen any improvement in the IT infrastructure in 
the last year? Sixty-one percent said no.
    Do the current software applications provide you with the 
ability to timely service producers? Eighty-one percent said 
no.
    There is a wide range of program needs for each and every 
individual producer. We have heard here today how important 
maps are and they are our number one function. Unfortunately, 
this is one of our slowest processes taking 2-3 minutes to 
simply open, and another 2-3 minutes to prepare a map. This 
takes us 5-6 minutes to be prepared to service a producer in 
the office.
    As we mentioned, 1.7 million participants have to use this 
program to certify and use maps. If we are conservative and see 
a 5 minute ArcMap startup in that production, this has caused a 
potential loss of productivity of over 146,000 hours. This 
equates to a total loss of productivity of 68 full-time 
employees and a cost to the government of over $4 million.
    The second enrollment program for the DCP and ACRE Programs 
is probably our second most used function. Again, this is a 
function where we have to use several farm records. If there 
are changes such as acres, owners, addresses, e-mail address 
changes or changes in deposit information, we are required to 
use four separate log-ins to access the applications to service 
this one producer. A disruption, which still happens on a 
regular basis, in any one of these applications can prevent the 
office from efficiently handling this customer.
    The recent investment in our IT system has made some marked 
improvements and we want to thank you for those improvements. 
As USDA drives toward becoming paperless, the online FSA 
handbooks are an example of a success story. They make it much 
quicker to search through the 118 regulatory handbooks that are 
required to implement the Federal Farm Programs.
    The DCP and ACRE enrollment software are examples of 
functional and user-friendly applications. The producers 
especially like that they can sign up farms from other 
counties, however, these applications allow us to enroll these 
producers and get them back in the field where they need to be 
for their profitability.
    FSA needs your continued support and investment in 
infrastructure and software development to assure our IT 
systems are the best possible. The largest problem that we have 
today has already been mentioned. It is antiques. FSA offices 
across America start business everyday with a machine and a 
process that by any definition is considered antiquated. This 
problem must be solved.
    The current implementation of the SURE Program is no 
exception. There is no integrated software and the program is 
being implemented with a complicated, Excel workbook. Large 
volumes of data are being transferred from an interim report 
and keyed into that workbook. This is a perfect situation for 
overpayments, underpayments and mistakes and the most 
disheartening consequence for the county office employees is 
the loss of integrity and producer trust in our programs.
    NASCOE's motto is Loyalty, Service, Courtesy, and Effort. 
We take our profession very seriously. Many of our employees 
grew up on a farm or a ranch. They still farm or have family 
members involved in agriculture. These are our friends, family 
and neighbors. We want them to respect our profession and what 
we contribute to our local communities. NASCOE asks that you 
continue to conduct oversight of the Department's efforts to 
assure that programs passed by the Congress are delivered in a 
timely manner and effectively.
    Thank you for the opportunity to be here with you today. I 
will be glad to take any questions.
    [The prepared statement of Mr. Mayfield follows:]

  Prepared Statement of Mike Mayfield, National Legislative Chairman, 
National Association of Farm Service Agency Office Employees, Pulaski, 
                                   TN

    Mr. Chairman, Members of the Subcommittee, my name is Mike 
Mayfield. I appreciate the opportunity to testify before your Committee 
today. I have been involved with agriculture my entire life. I am part 
of a fourth-generation farm family. I have been active in 4-H Club, the 
Future Farmers of America, the Cattlemen's Association, Tennessee Farm 
Bureau and my local community. I have a Bachelor of Science Degree in 
Agriculture from the University of Tennessee. I have been an employee 
of the U.S. Department of Agriculture's Farm Service Agency for twenty-
four years. I am currently the County Director of the Farm Service 
Agency in Giles County, Tennessee. I am here today representing the 
National Association of Farm Service Agency County Office Employees 
(NASCOE). I am pleased that our national President, Mr. Myron Stroup of 
Kansas, is also here today.
    The National Association of Farm Service Agency County Office 
Employees is an organization that represents the county level employees 
of the Farm Service Agency of the United States Department of 
Agriculture (USDA). NASCOE was originally chartered in 1959. FSA 
employees are in contact with virtually every producer in the United 
States, and NASCOE is proud to represent 85% of all county office 
employees.
    In anticipation of today's hearing, NASCOE surveyed our membership 
with three pertinent questions:

    1. Is the current IT FSA infrastructure meeting your professional 
        needs as an employee? 76% said no.

    2. Have you seen any improvement in the IT infrastructure in the 
        last year? 61% said no.

    3. Do the current software applications provide you with the 
        ability to timely service producers? 81% said no.

    In most cases when a producer walks through the door of a local FSA 
office, the employees of the office know them by name. However, even 
with that level of personal knowledge, the producer's detailed farm 
operation information must be accessed from our computer operating 
system. Depending on the reason for the producer's visit to our office, 
we will proceed to certain areas of a producer's farm information. Many 
times that may be a printout of their farm operation record or a copy 
of a producer's farm map. It may be to make a payment on a loan or 
apply for a loan. There is a wide range of program needs for each and 
every individual producer. I would like to discuss two main functions 
that our offices perform. According to reports from throughout the 
country, the use of maps for numerous reasons from irrigation 
installation, acreage determinations, crop planning, farm subdivision 
and acreage reporting to name a few is the most heavily used office 
process. We have a tremendous tool with ArcMap and our GIS Common land 
unit layer, and it can be an intricate part of a producer's farming 
operation. Unfortunately, this is one of our slowest processes taking 
2-3 minutes to open. Next a search must be made of farm records to find 
the appropriate farm number or numbers, and then printing takes 5-6 
minutes before the information is available to work with the producer. 
If any one of these software applications is not available or 
disrupted, the office will have to seek out the information manually, 
or if the server is down, we will not be able to provide this 
information to the customer. The manual process dramatically increases 
the amount of time necessary to perform the service for the farmer or 
rancher.
    Enrollment in Direct and Counter Cyclical Program and Average Crop 
Revenue Election was determined to be the second business function 
widely used. This process is dependent on more interactive software 
processes to accomplish the enrollment task. First, a printout 
detailing all of the farms involved in a particular operation is 
necessary for review. If there are changes such as acres, owners, 
addresses, adding e-mail addresses or changes in deposit information, 
it could take up to FOUR separate log-ins of username and password to 
access the necessary applications to service this one producer. A 
disruption, which still happens on a regular basis, in any one of these 
applications can prevent the office from efficiently handling this 
customer and may even require them to make subsequent visits to the 
office.
    All 1.7 million participants in the DCP and ACRE programs will be 
required to certify and use maps. If we are conservative and assume a 5 
minute ArcMAP startup on each map, we have a potential loss of 
productivity of 146,666.66 hours. This equates to a total loss of 
productivity of 68 full-time employees or a cost to the government of 
$4.42 million.
    The recent investments in our IT system have made some marked 
improvements and we want to thank you for those improvements. At least, 
gone are the days such as in 2007 when the eastern part of the country 
could access their computers before noon, and the western part of the 
country had to wait until after lunch. According to FSA employees, 
there are some functional and user-friendly applications that have 
allowed FSA to provide better service to producers. As USDA drives 
toward becoming paperless, the online FSA handbooks are an example of a 
success story. They make it much quicker to search through the 118 
regulatory handbooks that are required to implement the Federal farm 
programs. In addition, amending handbooks for policy changes and 
corrections used to take days. Now that process is instantaneous with 
the posting of the new amendment on the website.
    The Direct and Countercyclical Program enrollment software and 
Average Crop Revenue Election software are examples of functional and 
user-friendly software applications. The producers especially like that 
they can sign up farms from other counties. It is nice to be able to 
access all of a producer's interests. These applications allow us to 
quickly enroll producers and get them back in the field where they need 
to be for profitability. The interaction of the DCP and ACRE software 
with the National Payment Service application for 2010 advance payments 
has work seamlessly so far this season.
    The software to perform subsidiary file updates also is a user-
friendly application. It is easy to move between the actively engaged 
and conservation compliance updates. The reports are easily attainable 
and can be adjusted for specific county office needs.
    FSA needs your continued commitment to invest in infrastructure and 
software development to assure our IT systems are the best possible. 
Also, we would like to suggest that field-level input be at the 
forefront of any new software development, and those contributors need 
to be geographically diverse.
    The largest IT problem that faces FSA today--Antiques. FSA offices 
across America start business everyday with a machine and process that 
by any definition is considered antiquated. For example, in my office 
we currently have a County Operations Trainee that is preparing to 
become a county director, and the 26 year-old technology that 
initiate's our IT start of the day is older than he. This problem must 
be solved before FSA can truly enter the modern Information Technology 
age.
    I don't want to dwell today on those IT problems that have faced 
FSA in the last year such as the issuance of 2009 direct payments, CRP 
payments and the inability of our system to read appropriate 
eligibility flags. I want to concentrate on those issues that happened 
recently, impacting our ability to service the farmers and ranchers of 
this country.
    The 2009 payment problems created numerous overpayments and 
receivables around the country. Producers have begun to request their 
2010 advance DCP payments, and these will be offset against those 
receivables. However, the system is so slow that offsets made on 
February 22, 2010, had not cleared as of March 4, 2010, effectively 
eliminating our ability to release the remainder of a producer's 
advance payments without them being offset unnecessarily.
    On March 2, 2010, county offices were informed of a national 
internal processing error. County offices were operating blindly not 
realizing there were producers that had not been paid or had problems 
that needed correcting before they could be paid.
    Also on March 2, 2010, we were told of the challenge of maintaining 
and operating our old computer systems. This concerns the 3,000 servers 
that were installed in 2002 and ``have long since reached the end of 
their useful life.'' This leads to continual connectivity and slow 
application problems directly impacting the availability of our 
computer systems when your constituents come into our office for 
service.
    On March 3, 2010, county offices were informed that an application 
deployment issue resulted in the unavailability of the National 
Receipts and Receivables System. For a majority of the day, all 
processes in this system had to be completed manually.
    On March 5, 2010, we were informed that the Direct Loan Making 
application was experiencing performance issues. Customers may not be 
able to access the DLM application or may receive errors in the 
application.
    These are not abnormal occurrences and only represent a snapshot of 
what FSA employees deal with constantly in an effort to provide service 
to the American farmer and rancher.
    Last but not least is the current implementation of the SURE 
program. This is one of the most complicated programs we have 
implemented in years. There is no integrated software available, and 
the program is being implemented with a complicated Excel workbook, 
still to be updated. Large volumes of data are being transferred from 
an interim report and keyed into the workbook. This is a perfect 
situation for overpayments, underpayments and mistakes. The most 
disheartening consequence for the county office employees is the loss 
of integrity and producer trust in our programs.
    NASCOE's motto is Loyalty, Service, Courtesy, and Effort. We take 
our profession very seriously. Many of our employees grew up on a farm 
or ranch, still farm or have family members involved in agriculture. 
These are our friends, family and neighbors. We want them to respect 
our profession and what we contribute to our local communities. There 
are serious issues before this Committee today. NASCOE asks that you 
continue to conduct oversight of the Department's efforts to assure 
that programs passed by the Congress are delivered in a timely, 
effective manner.
    Thank you for the opportunity to be with you today.

    The Chairman. Thank you very much, Mr. Mayfield.
    Next, we will have Mr. Turner.

         STATEMENT OF CRAIG TURNER, PRESIDENT, NATIONAL
           ASSOCIATION OF FARMER ELECTED COMMITTEES,
                          MATADOR, TX

    Mr. Turner. Good morning, Chairman Baca, Members of the 
Subcommittee.
    My name is Craig Turner. I am President of the National 
Association of Farmer Elected Committees, also the Chairman of 
our local county committee in Motley County. I farm and ranch 
in Matador, Texas where we raise cotton, sorghum, wheat, 
forage, cattle and kids. We farm in four separate counties and 
I also deal with four separate FSA agencies.
    NAFEC is very pleased and honored to be asked here and with 
the opportunity to speak. NAFEC is a 45 year-old organization 
of farmers and ranchers that consist of county committee 
members. We help serve with the Secretary of Agriculture in 
delivering FSA Programs. We represent many farmers and ranchers 
that are nominated to the CoC. Including our advisors, we serve 
as the eyes and ears for the Secretary and this Committee. We 
do all we can to help curb fraud and abuse in farm program 
delivery. We assist at the local level in determining your 
weather conditions, your farm tax and your crop production 
appropriate agricultural practices. There is not a day goes by 
that our committee members aren't in your local communities 
answering questions with people inquiring about programs and 
things like that.
    I want to vary off from my written statement just a little 
and talk to you about some items that have been brought to my 
attention since I presented that. Some of the IT problems: as a 
producer when you receive your checks whether it be your direct 
payment or whatever, the new system, it is very hard, 
practically impossible to document where the money comes from 
to trace it or track it back to the FSA serial number. That is 
one of the major problems.
    Also, them not having the software to take our applications 
on a lot of this stuff, which they will have to take manually, 
and then whenever they get the software be it 2 weeks or 2 
months, then they have to go back in and reenter the 
information onto the software. And that is, I mean that is just 
doubling their time and not being very good management of time, 
and I think that is one of the major problems inside our IT.
    And also it seems to be the limit of IT staff to cover the 
vast areas. A lot of times when they have a ticket problem and 
they have presented it, it takes sometimes hours, sometimes 
days before they can get an answer back and, therefore, that is 
shutting the operation down with that particular farmer and 
causing him to have to go and then come back at another date.
    There are also several instances where the new IT equipment 
arrives in the local offices and it will sit there in boxes for 
2-3 months at a time waiting on personnel to install it. And at 
the same time while it is sitting there being useless, the 
warranty and stuff is going ahead and ticking off on it.
    Not having it all on one system, trying to use the web-
based system and the old 36 system as everyone has referred to, 
you have to reenter stuff and use different log-ins and things 
like that, which creates a lot of problems and a lot of wasted 
time, in my opinion. And also not being able to share with you, 
something that has been alluded to that they are working on, 
not being able to share your information inside your USDA 
agencies. You know, you may all be under the same roof, same 
building, same everything but when you need information you 
still have to get up and go get it instead of being able to 
access it whether you be at the NRCS and need information from 
the FSA or vice versa.
    I guess that pretty well sums up my statement other than 
what happened to the Paper Reduction Act? Thank you, sir.
    [The prepared statement of Mr. Turner follows:]

Prepared Statement of Craig Turner, President, National Association of 
                 Farmer Elected Committees, Matador, TX

Introduction
    Chairman Baca, Ranking Member Fortenberry, and Members of the 
Subcommittee on Department Operations, Oversight, Nutrition and 
Forestry, I am Craig Turner, President of the National Association of 
Farmer Elected Committees (NAFEC), as well as a farmer and rancher from 
Matador, Texas. My family raises cotton, grain sorghum, wheat, forage, 
cattle and kids. We farm in four counties and work with four separate 
Farm Service Agency (FSA) county offices.
    NAFEC is pleased and honored to have been extended the invitation 
and opportunity to appear before this Committee today to discuss issues 
relating to information technology (IT) as it relates to delivery of 
FSA programs.

Overview of the FSA County Committees
    NAFEC is a forty-five year old organization of farmers and ranchers 
that serve the Secretary of Agriculture in delivering many of the FSA 
programs. We represent many farmers and ranchers that are nominated and 
elected to serve on the County Committees (CoC) as well as many of the 
farmers and ranchers that are appointed to represent minority and 
socially disadvantaged producers and act as advisors to the CoC.
    County Committee members, including our advisors, serve as the eyes 
and ears for the Secretary, as well as this Committee, in helping curb 
fraud and abuse in farm program delivery. We know the producers in our 
county; we help document the weather conditions during the crop year; 
and we know the appropriate agricultural practices required in our 
areas. All of this information is critical in assisting in the fair and 
equitable delivery of farm, conservation and emergency programs in 
every county of the nation.
    County Committee members also assist in outreach to the farmers and 
ranchers in the areas we serve. We take the critical program 
information we learn in our capacity as members and advisors back to 
the producers we represent. Any CoC member or advisor will tell you 
that on any given day, be it at the coffee shop, sale barn, implement 
dealer, high school football game, farm meeting, service club meeting, 
church, grocery store or wherever else we may be, it is very common for 
farmers to ask: ``what is new at FSA; when are the signup deadlines; 
when will benefits be available;'' and many other crucially important 
questions that need informed answers. This collateral duty of outreach 
is especially important for our CoC advisors because they often have 
the ability to do targeted outreach to the minority and socially 
disadvantaged producers in the area.
    County Committees also assists in approval of applications for most 
programs (except farm loan programs), as well as reconsiderations and 
appeals by producers on program eligibility, providing local expertise 
to the Secretary in the delivery of programs. County Committees are 
also tasked to hire and help supervise the County Executive Director 
(CED), who in turn hires and manages the day-to-day county FSA office 
operations.
    We take all of the aforementioned FSA County Committee 
responsibilities very seriously, provide our time and expertise and are 
bound by mandatory confidentiality restrictions and a code of conduct--
all for about $50 a month. We may not rank up there with Roosevelt's 
``Dollar a Year Men,'' Mr. Chairman, but you would be hard pressed to 
find a better deal for the money anywhere else in today's government.
    And by the way, that $50 per month is also about what the National 
Finance Center charges FSA to pay us, a possible side topic for your 
Committee's oversight of Department operations.

Program Delivery Overview
    I have in my hand, and have attached to my written testimony, an 
eight-page Fact Sheet from FSA detailing almost fifty programs 
currently administered by FSA. If I had a list of FSA programs from 
before 1986, it would be much, much shorter than the one I hold today 
because, since passage of the 1985 Farm Bill and subsequent farm bills, 
we have added the majority of the programs on this list.
    CoC members do not have any authority in FSA lending programs, and 
with the exception of a very short window of time immediately following 
the reorganization of the Department of Agriculture in 1995, never 
have. But we are involved in assisting with the delivery of most other 
programs on this list.
    More importantly, our local county offices deliver most, if not 
all, of the programs on this list and the proliferation of new and more 
complex programs administered by our county offices has been a mixed 
blessing. Prior to the mid 1980s, most of our programs were directed 
toward the seven major, strategic, storable crops (keep in mind that 
even soybeans were not a ``program crop'' until recently) and the 
programs we had for those major crops were much simpler to understand 
and deliver. There were few, if any, programs for dairy and other 
livestock, fruit and vegetable, aquaculture, biomass or producers of 
other crops and products.
    In these modern times, FSA's programs cover a much larger sector of 
production agriculture. These additional programs are critically 
important to the economic viability of a much larger customer base and 
that is a very good thing--not only for dairy producers, cow-calf 
operations and conservation minded producers--but also for minority 
producers engaged in the production of highly specialized and high 
value crops very small acreages. These new programs are even more 
critical to farmers in an area like your home state of California Mr. 
Chairman, where until recently most of your farmers had no programs 
authorized by Congress to turn to. California's FSA now serves a very 
large, diverse customer base that raise a huge array of crops and 
livestock.
    But on the other hand, our county FSA offices have many more 
programs to deliver to many more producers, many of whom had never been 
to an FSA office before. Contemporary FSA programs are also much more 
complex for the farmers to understand and for FSA to deliver.
    Using California as an example again, that state's FSA now delivers 
services to a very large and diverse customer base which raises a huge 
array of crops and livestock with an organization of people, offices 
and infrastructure, based on delivering programs to only producers of 
those seven major crops of the legacy farm programs. California's FSA 
customer base may be three to four times what it was just a decade ago, 
and the number of programs they are delivering has grown three to five 
fold--they are doing the job with only 30 county offices and less than 
200 employees statewide, including the state office. They are to be 
commended, but more importantly, they deserve a modern system to 
deliver our modern programs.

Information Technology and its Relation to Program Delivery
    The challenge of delivering this multitude of highly complex 
programs to a much larger customer base has been, and continues to be, 
exacerbated with an ever-declining FSA workforce and an ever-shrinking 
number of county offices. FSA has, therefore, been forced to rely much 
more heavily on IT in an attempt to fill the service gap. 
Unfortunately, much of FSA's current IT structure is archaic and 
fragile. We fear that we are uncomfortably close to a total IT meltdown 
and that service to farmers by the FSA is in a perilous situation.
    In December of 2008, NAFEC submitted the following statement to 
President-Elect Obama's Presidential Transition Team--``Since farm 
programs continue to become more bureaucratic and complicated with each 
new farm bill, there should be no more closings of county Farm Service 
Agency offices, no reductions in FSA staff and no reductions in FSA 
staff compensation until such time that farm programs are greatly 
simplified. FSA's ageing and antiquated computer and communications 
systems should be replaced and updated to meet the current challenges 
faced by FSA staff in the delivery of farm, conservation, credit and 
disaster programs.''
    In that same spirit, we offer these critical points:

  <bullet> NAFEC appreciates the work of the U.S. Congress in providing 
        the authority for delivery of more programs to more farmers;

  <bullet> NAFEC urges that Congress consider reducing the complexities 
        of future farm programs so that we can deliver more programs to 
        more farms, more efficiently, but anyone that follows the 
        current trends in that regard cannot realistically expect any 
        real change;

  <bullet> NAFEC urges more staffing at the state and county level in 
        order to deliver more programs to more farmers, but again 
        anyone that follows the current trends in that regard cannot 
        realistically expect any real change;

  <bullet> NAFEC urges that no more county FSA offices be closed so 
        that we can deliver more programs to more farmers, but once 
        more, anyone that follows the current trends in that regard 
        cannot realistically expect any real change;

  <bullet> NAFEC therefore demands an investment into a modern IT 
        platform to allow FSA and the other field delivery agencies of 
        the USDA, deliver more programs to more farmers and rural 
        Americans;

    The investment in a modern IT platform must be dedicated toward 
that objective. We commend Secretary Vilsack for his commitment and 
leadership on this issue and we commend Congress and the leadership in 
this room for helping dedicate additional IT funds in the FY 2010 
Federal budget and the Recovery and Reinvestment Act of 2009, but the 
Secretary needs more help from Congress to fully fund and fully 
dedicate those resources toward that objective.
    Many of you know the unwritten challenges faced by Secretary 
Vilsack, Administrator Coppess and their predecessors. They know very 
well the intended mandates of the House and Senate Agriculture 
Committees when it comes to farm programs and their delivery. In prior 
years the agency requested adequate resources to comply with those 
mandates, but once those requests are diced and sliced at the Office of 
Management and Budget, the official request presented to Congress was 
well short of the need. Hopefully you understand this challenge and can 
better assist the Secretary in the future.
    For too many years, FSA has been forced to take funding away from 
salaries for staff and expense money for county and state offices to 
fund stop-gap measures to keep the old IT system up and running. FSA 
has bled all of the people and brick and mortar it can afford to keep 
the old IT system running. There must be a separate, dedicated, 
statutory funding stream for a modern IT platform--authorized by 
Congress--if we are to deliver all of the programs authorized by 
Congress to all of the farmers and ranchers mandated by Congress.
    We commend President Obama and Secretary Vilsack for their bold 
initiatives on broadband deployment in rural America. We also suggest 
that county FSA offices and USDA Service Centers be prioritized as a 
high priority target for broadband deployment. If we can get broadband 
to our FSA county offices it would not only help negate the agency's 
antiquated and decaying LAN-WAN system, but we may also have a better 
chance of getting broadband deployment to the rest of the county and 
into the homes and offices of farmer and ranch families.
    Some newer technology is being deployed using the internet as a 
platform. Using Electronic Authorization (e-auth), some producers have 
the ability to sign up for some programs using their home or office 
computers. Many producers do not have computers or if they do, they do 
not have a comfort level or the expertise to use the online process. 
But an even larger obstacle may be that many, if not most, rural areas 
still do not have broadband internet service. Internet based program 
delivery is a very good supplemental platform, but is in no way an 
acceptable replacement for ``over-the-counter'' service at the county 
FSA office.
    In closing, we wish to reemphasize these points:

  <bullet> There are more FSA programs available today than ever 
        before;

  <bullet> There are more farmers qualifying for FSA programs than ever 
        before;

  <bullet> Farm programs are more complex than ever before;

  <bullet> There are few FSA employees and fewer FSA offices than in 
        any time in modern history; and

  <bullet> The FSA IT platform is in dire need of modernization.

    This hearing focused only on the final point in this list, but the 
other points cannot be easily addressed by either Congress or the 
Administration. Therefore let me restate that there must be a separate, 
dedicated, statutory funding stream for a modern IT platform--
authorized by Congress--if we are to deliver all of the programs 
authorized by Congress to all of the farmers and ranchers mandated by 
Congress.
    NAFEC and I appreciate your invitation to address this Committee 
today, we commend your leadership and initiative in addressing these 
issues and I will be happy to answer any questions you may have. Thank 
you Mr. Chairman.

                               Attachment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     Thank you very much, Mr. Turner.Next, Dr. Craig.

  STATEMENT OF WILLIAM J. ``WILL'' CRAIG, Ph.D., PRESIDENT, NATIONAL 
 STATES GEOGRAPHIC INFORMATION COUNCIL; ASSOCIATE DIRECTOR, CENTER FOR 
   URBAN & REGIONAL AFFAIRS, UNIVERSITY OF MINNESOTA, MINNEAPOLIS, MN

    Dr. Craig. Chairman Baca and Members of the Committee, thanks for 
inviting me here today.
    I am going to focus my comments on the National Agriculture Imagery 
Program (NAIP), which is operated at FSA to serve the various programs 
in USDA but it also has huge value for state and local governments. I 
am here in my capacity as the President of the National States 
Geographic Information Council but I am also the Associate Director at 
the Center for Urban and Regional Affairs, University of Minnesota, 
where we have a lot of contacts with people across the state, and I am 
also on the Governor's Council for Geographic Information.
    We have meetings when we go out to Fergus Falls, Saint Cloud, 
Winona, where we invite people in from the local community and ask them 
as a council that is trying to organize things at the state level, what 
can we do for you? And the answer is always get us new orthoimagery. 
Get us new air photos. We push them on why they need that and it 
includes things like Farm Programs and the farmers who need those 
photos for their own work. It includes things from people who are 
working on water quality where they took the--or flooding for that 
matter and that is going to happen again in the Red River Valley pretty 
soon. Those air photos are going to be part of the whole deployment and 
trying to make sure that people's lives are safe and that they can move 
things in and out of the community.
    Those air photos are used as backdrops. They are used as things 
that we interpret to turn into land coverage that then we can use to do 
soil modeling for soil erosion which leads to clean water. So, there 
all kinds of things being done at the state and local government level. 
State DNR needs them for habitat management and DOT needs it for road 
maintenance and management. We do have right now pretty current air 
photos for Minnesota. I just asked people at our Minnesota Geographic 
Information Office what kinds of use those get, 7\1/2\ million hits in 
the last year, the last Federal fiscal year.
    This data is not just used for Farm Programs. It is used by state 
and local government, by private sector, people who are working with 
state and local government and folks, and it makes a huge difference in 
the quality of life.
    The problem is that we don't know when the next one is coming. It 
has been very sporadic having the NAIP Program tied to the IT budget it 
means that sometimes more is available, sometimes less. We have nothing 
we can plan on.
    If we talk about what the states would like with the NSGIC, this 
group I represent at a national level would like, we would like 
statewide coverage and oftentimes we can put some resources on the 
table to make that happen. We would like buy-up options so that if 
people want to have higher resolution photos or different bands and 
what the airplane picks up when it goes over, we want to have that and 
we are willing to pay for it. We want nationwide coverage that would 
include Alaska and Hawaii and the highland areas. We want the 
information as it does now to end up in the public domain. This is one 
of the beauties. People say to me, why don't you just use Google? I am 
telling you that Google is using NAIP for this computer server, who is 
feeding who here?
    Our problem, as I said, is that we would like to have the program 
institutionalized in some way so that we know how to count on it, so we 
know year after year when it is coming, what we can expect and we get 
our part organized to use that data and to contribute to it. One 
possibility that we have put forward is the idea of a separate line 
item in the budget for NAIP.
    That concludes my remarks, Mr. Chairman.
    [The prepared statement of Dr. Craig follows:]

  Prepared Statement of William J. ``Will'' Craig, Ph.D., President, 
  National States Geographic Information Council; Associate Director, 
     Center for Urban & Regional Affairs, University of Minnesota, 
                            Minneapolis, MN

    Chairman Baca, Ranking Member King and Members of the Subcommittee, 
I thank you for the opportunity to testify about the status of 
information technology at the U.S. Department of Agriculture (USDA). My 
comments today are limited to the National Agriculture Imagery Program 
(NAIP), which is operated by the Farm Services Agency (FSA). The NAIP 
program supports the administration of USDA's various farm programs and 
NAIP imagery is provided to Federal, state, local and tribal government 
agencies, educational and scientific institutions, and private sector 
parties across the country at nominal cost.
    I'm here in my capacity as President of the National States 
Geographic Information Council (NSGIC), but I'm also the Associate 
Director at the Center for Urban & Regional Affairs at the University 
of Minnesota. In both capacities, I see the tremendous value of NAIP 
aerial photography for state and local governments (See list of uses 
starting on Page 52) and I want to relate the importance of this 
program to the Members of the Subcommittee.
    In 2004, NSGIC introduced a concept called Imagery for the Nation 
(IFTN) which is still being studied by a Federal multi-agency 
committee. There are two compo-

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

resources and developing management plans for farms). The other 
component of IFTN is a very high resolution imagery program (1 foot 
resolution) that is collected during leaf-off periods. This type of 
imagery has great value to all communities for mapping applications, 
since you can ``see'' through significant areas of vegetation to 
identify features on the ground (e.g., see the red circles in the 
images above that show houses and roads to the left that don't appear 
under tree cover in the forested areas to the right). Both types of 
imagery are complimentary and both are critical to meet the varied 
needs of all government programs.
    Five years after the introduction of IFTN as a concept, we are very 
pleased with the continuous improvements made to the NAIP program. 
Secretary Vilsack and the staff of the Farm Services Agency should be 
commended for their commitment to this program. I have previously 
referred to NAIP as a ``happy accident,'' meaning that it was a Federal 
program that just happened to align with some of the business 
requirements of state and local governments. In the past few years, 
however, USDA has turned a happy accident into an intentionally 
productive partnership. They understand the inherent value of this 
program to all levels of government, the agricultural community and the 
general public (e.g., as a base image in Google Earth<SUP>TM</SUP>). 
FSA diligently works to improve its products and to account for the 
business requirements of its stakeholders. NAIP program managers have 
worked very hard to meet the vision of IFTN while functioning within 
the constraints of their mission and budget. It is truly refreshing to 
see this level of commitment and dedication.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    One key element of Imagery for the Nation is the opportunity to 
``buy up,'' that is the ability of users like state and local 
governments to pay an extra amount to obtain improvements in the basic 
NAIP images tailored to meet their own business requirements. They work 
with USDA through cooperative agreements and pay the full cost of 
modifying the base imagery to meet their own requirements (e.g., image 
type, accuracy and acquisition date). The examples shown above compare 
natural color and color infrared imagery as one example of a possible 
buy-up option. Each type of imagery allows the user to interpret and 
understand different things about the condition of the land. Color 
infrared (CIR) imagery can be acquired at a slightly higher cost than 
the base product and the requesting party pays all additional costs. 
CIR allows for accurate interpretation of forest type and 
identification of wetlands among other uses. Again, USDA has been 
willing to work with state and local governments to incorporate their 
requirements into its contracts to help reduce duplication of effort 
and government waste. By working through the contracts administered by 
USDA, states are able to significantly reduce their own costs. This is 
because large area contracting reduces the per square mile costs for 
acquiring and processing imagery. This translates into smarter, more 
efficient and cost-effective government. Imagery acquired on an annual 
basis can help monitor the conversion of agricultural land, urban 
growth, general land cover changes and construction activities. Imagery 
also helps to document progress on major construction projects such as 
those being funded through the American Reinvestment and Recovery Act. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

e.g., aircraft mechanics and hotel staff). Given the current economy, 
the positive impact of this program can't be overstated and it will 
help these companies survive until our economy is once again solvent 
    and growing.Now, I would like to get to the point of this 
discussion. I'm asking you, on behalf of the Board of Directors and 
state government members of NSGIC, for legislation that will provide a 
statutory authorization to assure that funding for NAIP is kept 
separate from salaries and expenses of FSA--a step necessary to keep 
the program stable and predictable. I'm also asking you to fund the 
NAIP program at a level adequate to support annual 1 meter image 
acquisition over the Continental U.S. (CONUS), 1 meter imagery every 5 
years over Alaska, and 1 meter imagery every 3 years over Hawaii and 
the insular areas--a total cost estimated at about $55 million per 
year. NAIP funding has previously been limited to CONUS, but these 
other areas are also critical to the economy and security of the 
nation. They are either not served, or are severely underserved by 
government imagery programs. NSGIC is absolutely confident that FSA 
staff can manage a comprehensive 1 meter program for the entire nation 
and we urge you to give them this responsibility. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Typical Uses for NAIP Orthoimagery
(Partial List for Illustration Purposes)
Fire and Emergency Services
  w Locating roads, buildings and infrastructure in wildland fire prone 
        areas and during other events that require protection or 
        evacuation (i.e., hazardous materials release)

  w Mitigate and plan for wildfire losses (i.e., Firewise Program).

  w Determine staging areas for large incidents.

  w Determine ingress and egress points during incidents.

  w Provide to mutual aid companies to assist their orientation to the 
        area.

  w Locating snowmobile, ski and ATV trails for wireless 911 rescues.

  w Aid in search and rescue operations and for finding landing sites 
        in wilderness areas for helicopters.
Law Enforcement and Homeland Security
  w Use during incidents and preplan for containing escaped offenders 
        from crime scenes and at correctional facilities.

  w Determine ingress and egress points when serving warrants and 
        during incidents.

  w Determine staging areas for back-up and special operations units.

  w Identify weaknesses in border security.

  w Depict critical infrastructure features and their location to 
        populated areas.

  w Use for crime scene analysis, trends and pattern recognition.
Emergency Management
  w Evacuation route planning.

  w Floodplain mapping.

  w Flooding analysis and mitigation activities.

  w Emergency management analysis and planning.

  w Identify, monitor, assess and map the effects of wildland fires, 
        wind storms, ice storms, landslides, avalanches, tornados, 
        hurricanes, flooding and other disasters.

  w Identify, map and plan for the security of critical infrastructure.

  w Use in command posts to brief and inform senior managers.

  w Identify existing structures in danger due to natural or man-made 
        disasters.
Transportation
  w Use for alternative route analysis and planning.

  w Assist in the design and engineering requirements for bridge and 
        culvert projects.

  w Assist in establishing rural route addressing.

  w Display, analyze and map road accident locations.
Natural Resources & Environmental Management
  w Identify, delineate and map wetlands.

  w Develop land and timber management plans.

  w Identify, analyze and map wildlife habitats.

  w Support soil erosion assessments.

  w Support drainage studies.

  w Identify and map surface waters, streams and shorelines.

  w Identify, map and analyze watersheds.

  w Identify, map and maintain trails (snowmobile, ski, ATV, Horse & 
        Hiking).

  w Use for hunting and fishing activities.

  w Reduce the number of field visits made by permit staff.

  w Help identify and notify property owners affected by permit 
        decisions.

  w Monitor natural and man-made changes in the landscape (i.e., 
        encroachment on wetlands).

  w Quantify the impacts of sea-level rise and climate change.

  w Assist in carbon sequestration studies.

  w Assist in monitoring and regulation of permit violations (e.g., 
        floodplain and wetland fills, and expansion of mining 
        facilities).

  w Identify and map forest fragmentation.
Geological Studies
  w Soil mapping.

  w Geologic mapping.

  w Groundwater analysis and mapping.

  w Identify and map geologic hazard areas.

  w Identify and map land subsidence and ground fissures due to 
        groundwater extraction.

  w Identify, analyze and map geothermal and mineral resources.

  w Use for oil and gas exploration and development.
Agriculture
  w Compliance and crop monitoring.

  w Agricultural land delineations.

  w Monitoring the spread and eradication of invasive species.

  w Determine need for and plan spraying programs (e.g., Mosquito and 
        Gypsy Moth abatement).

  w Plan re-vegetation programs.

  w Determine the health of forests, grazing and multiple use areas.

  w Use for farmstead activities (e.g., routing driveways, and locating 
        new feedlots and buildings).

  w Use in precision agriculture to assure maximum economic return to 
        farmers while reducing environmental problems associated with 
        over-fertilization.

  w Use in developing conservation plans, nutrient management plans, 
        tile drainage plans, wind break plans, and manure management 
        plans.

  w Identify grazing issues and rangeland health.
Education
  w Bus Routing Decisions.

  w Help students learn more about their world.

  w Help teach students about geography.
Planning
  w Use during comprehensive plan development.

  w Assist site development and redevelopment activities.

  w Determine and map land use.

  w Assist zoning decisions.

  w Detect changes in land cover over time (e.g., conversion of 
        agricultural lands, forestry operations and urban sprawl).

  w Help relate planning decisions to the public.
Assessments and Taxation
  w Assist in property assessments.

  w Locate new and/or unauthorized building activities.

  w Defend assessments during Board of Review hearings.
Public Health
  w Identify and map groundwater recharge areas and well head 
        protection zones.

  w Inventory potential sources of groundwater contamination.

  w Identify and map known Superfund locations and other sources of 
        contamination.

  w Identify and map air pollution sources (i.e., factory smoke 
        stacks).

  w Provide inputs for and develop modeling programs.

  w Identify and map disease habitats and disturbed areas (e.g., 
        Hantavirus, Chronic Wasting Disease and Lyme Disease).

  w Identify and map failing septic systems.
Economic Development
  w Identify areas of interest for recreation and tourism.

  w Use for real estate acquisition decisions and to show properties to 
        customers in relation to the landscape.

  w Identify areas for Federal land disposal and land swaps.

  w Plan for construction and use to monitor oil and gas pipelines, and 
        electric transmission lines.

  w Assist preliminary site planning and construction for general 
        construction projects.
Other Uses
  w Use during public meetings and hearings to help citizens relate to 
        public programs and development activities.

  w Inventory public infrastructure to comply with GASBY 34/35.

  w Manage public utilities in compliance with EPA rules.

  w Identify and map every aspect of the Earth's surface and manmade 
        structures.

  w Use as historic records of man's activities.

  w Use to locate survey monuments and to plan surveying activities.

  w Monitor water ``rustling.''

  w Inventory, analyze and map open space for wind, solar, and other 
        alternative energies.

  w Backdrop for interactive web-mapping sites.

  w Providing on-demand printed aerial ``Maps'' for the public (e.g., 
        hunters, land owners, real estate developers, and hiking).

  w Selecting sites for communications towers.

  w Help provide location information to a more geographically aware 
        public (e.g., public meetings, news broadcasts, and commercial 
        mapping sites like Google Earth<SUP>TM</SUP> and 
        Mapquest<SUP>TM</SUP>.

    The Chairman. Thank you very much, Dr. Craig.
    Mr. Krosch.

  STATEMENT OF JIM KROSCH, SUPERVISOR, STEVENS SOIL AND WATER 
             CONSERVATION DISTRICT, MORRIS, MN; ON
    BEHALF OF NATIONAL ASSOCIATION OF CONSERVATION DISTRICTS

    Mr. Krosch. Good morning. I am Jim Krosch, one of five 
elected supervisors of the Stevens Soil and Water Conservation 
District located in Morris, Minnesota. Currently, there are 91 
Soil and Water Conservation Districts in Minnesota providing 
100 percent coverage of the state. I am pleased to be here 
today on behalf of the National Association of Conservation 
Districts to discuss the importance of the USDA's information 
technology systems.
    To assist in the implementation of Federal conservation 
programs, our members work with the NRCS in the FSA agencies as 
well as other Federal agencies and state and county programs. 
USDA relies on conservation districts and other partners to 
deliver local technical services to farmers, ranchers, private 
land owners that are in the communities. It is vital that the 
USDA data and technical tools are available to conservation 
district employees. As full partners of NRCS, districts use 
these tools every day to support local conservation efforts.
    The partnership between NRCS and conservation districts is 
unique. Most districts have technical staff with access to the 
same technology that NRCS uses. This ensures the landowners 
have access to the tools needed to develop and implement the 
appropriate conservation actions.
    At SSWCD in Minnesota, we use this technology on a day-to-
day basis. It is a vital link between us as a conservation 
district and our Federal partners so we may work together 
putting conservation on the ground. Without access to these 
programs, we would not be as effective. Using the NRCS Toolkit, 
we, along with our partners, have put over 5,400 acres into the 
Wetland Reserve Program in our county alone averaging over $12 
million of Federal and matching state funds, which in turn 
stimulates the local economy through the use of local 
contractors, seed vendors and other partners.
    As a third-generation farmer, who has actively farmed for 
over 25 years, I can personally attest to the importance of 
technical assistance and access to the technology needed to 
design and implement sound conservation practices. In 
partnership with my conservation district and the NRCS, I have 
implemented a number of different conservation practices on my 
farm. Without this technology, it would have been very 
difficult to effectively employ successful conservation 
practices on my land.
    Let me use a couple of examples from my work at Stevens 
SWCD. When a landowner comes in with an idea for a particular 
piece of property he will sit down with a technician and 
discuss his or her plan. This initial interview gives our 
technician the basic groundwork for what the producer is 
looking for. The Toolkit software then allows us to work with 
the landowner to effectively determine the feasibility of his 
or her project. The map you have in front of you is an example 
of how we use GIS Toolkit and aerial photography to map a 
filter strip along a stream. We are able to use these tools on 
both an individual and multi-farm or watershed basis.
    As an elected district supervisor, I cannot stress enough 
the importance of this technology to effectively serve 
producers and landowners in our district. Landowners and local 
units of government expect conservation district and NRCS staff 
to be able to obtain maps and detailed imagery of their land 
during their visit. This service and technology provides the 
American taxpayer with excellent value.
    Yes, the system is not perfect. It has had problems with 
download speeds and difficulty in getting things going, but 
your IT staff does an excellent job of trying to keep it going. 
We are especially excited about the improved aerial imagery 
that is slowly becoming available. One of the most promising 
new technologies to enable the gathering and availability of 
the elevation data is Light Detection and Ranging, or LIDAR. 
LIDAR makes possible the collection and analysis of elevation 
data over large areas at a scale that has not been feasible in 
the past. We need to make sure this exciting technology is 
available in all states to assist in our conservation efforts.
    Without the continued upgrading of software, maintenance of 
the system and full access for conservation districts to form 
information and technical tools through the USDA's IT system, 
the seamless and efficient delivery of conservation technical 
assistance by our conservation districts would be severely 
reduced. Ultimately, America's food, fiber, feed and fuel 
producers would suffer due to diminished access to quality 
technical assistance to help them protect their natural 
resources.
    We encourage you to continue to provide quality technology 
support for all of our agencies. The better the technology we 
have, the better we can serve our producers and in the end, 
achieve our goal of putting conservation on the ground.
    Thank you for the opportunity to testify today on behalf of 
the conservation districts across the country.
    [The prepared statement of Mr. Krosch follows:]

  Prepared Statement of Jim Krosch, Supervisor, Stevens Soil and Water
Conservation District, Morris, MN; on Behalf of National Association of 
                         Conservation Districts

    Good Morning. I am Jim Krosch, one of five elected supervisors of 
the Stevens Soil and Water Conservation District located in Morris, 
Minnesota. Currently there are 91 Soil and Water Conservation Districts 
(SWCD) in Minnesota, providing 100 percent coverage of the state. There 
is at least one SWCD in each of the 87 counties, while a few of the 
larger counties have more than one. Soil and water conservation 
districts are established in each community, governed by local leaders 
and focused on the conservation of local soil and water resources. As a 
result, Minnesotans trust SWCDs to provide needed technology, funding 
and educational services for their respective communities. I am pleased 
to be here today on behalf of the National Association of Conservation 
Districts (NACD) to discuss the importance of the U.S. Department of 
Agriculture's (USDA) information technology systems.
    Across the United States, nearly 3,000 conservation districts are 
helping local people to conserve land, water, forests, wildlife and 
related natural resources. We share a single mission: to coordinate 
assistance from all available sources--public and private, local, state 
and Federal--in an effort to develop locally-driven solutions to 
natural resource concerns. More than 17,000 officials serve in elected 
or appointed positions on conservation districts' governing boards. 
Working directly with more than 2.3 million cooperating land managers 
and local communities nationwide, their efforts touch more than 1.6 
billion acres of private land. We support voluntary, incentive-based 
programs that provide a range of options, providing both financial and 
technical assistance to guide landowners in the adoption of 
conservation practices, improving soil, air and water quality providing 
habitat and enhanced land.
    Established under state law, conservation districts are local units 
of state government charged with carrying out programs for the 
protection and management of natural resources at the local level. To 
assist in the implementation of Federal conservation programs, our 
members work with the U.S. Department of Agriculture's Natural 
Resources Conservation Service (NRCS) and the Farm Service Agency 
(FSA), as well as other Federal agencies and state and county programs.
    Technical assistance is the backbone of Federal conservation 
programs, as well as state and local programs. Technical assistance is 
the individualized guidance and information that helps a landowner make 
a change. It could be engineering design work, assistance from an 
agronomist, localized information for soil types, habitat, nutrient 
reduction strategies and know-how for application of conservation 
practices and structures or the development and implementation of 
nutrient management plans. Whatever form the technical assistance 
takes, USDA information technology provides the important tools by 
which technical assistance is delivered.
    NRCS relies on conservation districts and other partners to deliver 
a substantial amount of local technical services to farmers, ranchers, 
private landowners, and urban communities. It is vital that that the 
NRCS data and technical tools to service landowners are available to 
local conservation district office employees. As full partners of the 
NRCS, districts use the technical tools day in, day out to support 
local conservation efforts.
    USDA provides a wide range of information technologies and tools to 
users of its systems, including conservation districts. Some examples 
include tools or technologies to address erosion and soil quality, 
water quality and water conservation, nutrient and pest management, air 
quality, livestock management and grazing, stream restoration, 
hydraulics and hydrology, and energy conservation assessment.
    The partnership between NRCS and conservation districts is unique. 
As full partners with NRCS, conservation districts make heavy use of 
the USDA database. Most districts have technical staff that provide 
technical service to landowners that want to participate in farm bill 
programs and develop conservation plans. These district technicians, 
with access to the same Federal technology that NRCS uses, are able to 
work with clients and provide technical assistance in partnership with 
NRCS. This strong partnership between NRCS and conservation districts 
allows districts to take on some of the local conservation workload and 
ensures that landowners have access to the tools needed to develop and 
take appropriate conservation actions.
    Geographic information systems (GIS) are a core technology for 
conservation districts to utilize in the delivery of conservation 
technical assistance helping landowners address natural resource 
problems on the land. Every NRCS field office across the nation has GIS 
as part of their information technology system, which includes GIS 
layers such as soils, topography, roads, streams, field boundaries and 
other layers. Through access to NRCS information systems, conservation 
districts also have access to GIS data and analysis capabilities.
    The two important programs that contribute to GIS are the National 
Agriculture Imagery Program (NAIP) and the National Digital Orthophoto 
Programs (NDOP). These are important components of geospatial tools 
used by local conservationists.
    NAIP acquires much of the aerial imagery used in conservation 
planning and provides the base layer used in GIS. It is the foundation 
of GIS programs.
    The National Digital Orthophoto Programs (NDOP) is a consortium of 
Federal agencies with the purpose of developing and maintaining 
national orthoimagery. This is the program that generates the GIS 
layers used for conservation planning and other natural resource 
activities by digitizing and ``correcting'' the aerial photography from 
NAIP or other sources.
    As an NRCS and FSA partner and user of USDA technologies, 
conservation districts also have access to this imagery and 
orthophotography.
    In our Soil and Water Conservation District in Minnesota we use 
this technology on a day-to-day basis. It's the vital link between us 
as a Conservation District and our Federal partners to work together 
putting conservation on the ground. Without access to these computer 
programs, I have no doubt that we would not be as effective as we have 
been over the past several years. Using the NRCS Toolkit we, along with 
our partners, have put over 5,400 acres into the Wetland Reserve 
Program (WRP) in our county alone, leveraging over $12 million dollars 
of Federal and matching state funds, which in turn stimulates the local 
economy through the use of local contractors, seed vendors and other 
partners. WRP takes sensitive, marginal land out of agricultural 
production and puts it back into wildlife habitat and wetlands, which 
helps alleviate erosion and flooding. The importance of being able to 
effectively use programs such as WRP are even more apparent today, as 
we watch Fargo, North Dakota and other cities along our rivers prepare 
for near record flooding again this spring.
    As a third generation farmer who has been actively farming for over 
25 years, I can personally attest to the importance of technical 
assistance and access to the technology needed to design and implement 
sound conservation practices. In partnership with my conservation 
district and NRCS, I have implemented a number of different 
conservation practices on my farm, including nearly 100 acres of CRP, 
filter strips, sediment dams and grass waterways. All this was done by 
working with Stevens SWCD and the local NRCS office. Without this 
technology, I would be unable to effectively employ successful 
conservation practices on my land.
    Let me use a couple of examples from our work at Stevens SWCD.
    When a landowner comes in with an idea for a particular piece of 
property, he will sit down with our technicians and discuss his or her 
plan. The landowner may be interested in putting a buffer or filter 
strip along a river, stream or ditch, or perhaps something as simple as 
dealing with an area in a field that is perpetually wet and floods out 
his or her crop year after year. This initial interview gives our 
technician the basic groundwork for what the producer is looking for. 
The next step is pulling up the aerial photo of the producer's field. 
The convenient thing about Toolkit is that it provides a one-stop-shop, 
if you will, of everything the technician will need to determine if the 
area the farmer is looking at is eligible for any of the programs 
currently available. This includes the aerial photo, common land units 
(CLU), soils maps, national wetlands inventory (NWI), highly erodible 
land (HEL), hydric rating, as well as other layers that delineate where 
sensitive state and Federal lands are located. The technician takes all 
these factors into account when they draw out the proposed areas that 
the producer would like to enroll. These maps are stored in a Toolkit 
database under the producer's name or farm name along with all related 
information for their operation. Having access to this technology gives 
our technicians the ability to get an accurate feel for the producer's 
land, so we can help him or her make the best conservation choices for 
his or her operation, perhaps even a program he or she hadn't thought 
of.
    As I stated before, SWCD use this technology on a daily basis for 
all programs. It has been and continues to be a successful tool when 
dealing with the Conservation Reserve Program (CRP) or the Wetland 
Reserve Program (WRP). Another example is a producer who has a stream 
running through his or her property. The landowner may want to provide 
a buffer strip along the stream to improve water quality or create 
habitat for wildlife. Again, we can use the aerial photo to lay out the 
approximate location, calculate the area, and check the size of the 
remaining fields to ensure that the producer is investing in a practice 
that makes sense for him or her and the purpose(s) that he or she wants 
to achieve.
    A third example is using the GIS and design software to lay out a 
series of strips or terraces for water control and for the purpose of 
helping a producer farm a more erosion-sensitive field in a way in 
which he or she can still protect the soil while raising a profitable 
crop. We use this approach to be able to help the landowner plan and 
figure what the costs would be as well as to make the field sizes and 
shapes configure to the kind of equipment that is used on the farm.
    It is also very beneficial to use the aerial photos and GIS 
capability for multi-farm projects on a watershed or habitat basis. 
This allows us to sit down with a group of landowners interested in the 
same objective and design a joint plan to accomplish their specific 
goals.
    Toolkit enables us to work with local, township and county road 
officials to plot out drainage from farm fields and road ditches so the 
system is as efficient as possible without causing undo problems 
downstream.
    These are just a few examples of how valuable this technology is to 
landowners and local conservation districts. As an elected district 
supervisor, I cannot stress enough the importance of this technology to 
effectively serve producers and landowners in our district. This 
technology provides my constituents with an excellent and invaluable 
service. Landowners and local units of government expect conservation 
district and NRCS offices to be able to obtain maps and detailed 
imagery of their farm or land area during their office visit. This 
technology can assist both large and small landowners and units of 
government in planning and implementing natural resource conservation 
practices. This service and technology provides the American tax payer 
with excellent value.
    An example of this type of service and the importance of access to 
detailed and accurate maps is what a local conservation district and 
the NRCS developed for the local drainage boards in Acadia Parish in 
Louisiana. Using USDA's technology, the local conservation district was 
able to provide maps of each drainage district, showing not only the 
natural drainage, but also providing the locations of all major water 
control structures, erosion control structures and recreational areas. 
This allowed for installation of conservation practices and projects on 
a watershed basis rather than just an individual landowner basis. The 
local drainage boards had never had such a complete picture of their 
area of responsibility. Similar examples can be found across the 
country.
    The system isn't perfect and has had some issues with speed of use, 
but USDA IT staff is constantly working on it to keep it updated and 
running as smoothly as possible. Of course there are always things that 
could be done to improve the system. There are times when it seems the 
machines are not able to download as fast as we would like and of 
course this slows down our customer service, but I understand the next 
upgrade or generation will help us on this front. We are especially 
excited about the improved aerial imagery that is slowly becoming 
available.
    The most promising new technology to enable the gathering and 
availability of elevation data is Light Detection and Ranging or LIDAR. 
LIDAR makes possible the collection and analysis of elevation data over 
large areas at a scale that has not been feasible to do in the past. 
LIDAR can be used to develop digital elevation models that are accurate 
to within 1 meter. Conservation districts and NRCS can take advantage 
of very accurate, high resolution data to analyze small differences, as 
little as 1-2 feet. This allows conservation district offices and NRCS 
to create very accurate soil maps which allow the district technician 
to determine where conservation practices have been or need to be 
installed before they go to the field. It also allows NRCS soil 
scientists to more efficiently do pre-mapping with increased accuracy 
based on elevation and spend less time in the field collecting 
elevation data. Many states are involved in efforts to acquire 
statewide LIDAR coverage. However, we need to make sure this exciting 
technology is available in all states to assist conservation efforts.
    Without the continued upgrading of software, maintenance of the 
system and full access for conservation districts to information and 
technical tools through USDA's IT system, the seamless and efficient 
delivery of conservation technical assistance by our conservation 
districts would be severely reduced. Ultimately, America's food, fiber, 
feed and fuel producers would suffer due to diminished access to 
quality technical assistance to help them protect their natural 
resources. We encourage you to continue to provide quality information 
technology support for the agencies. The better the technology we have, 
the better we can serve our producers, and in the end achieve our goal 
of putting conservation on the ground.
    Thank you for the opportunity to testify today on behalf of 
conservation districts across the country.

                               Attachment

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     Thank you. I want to thank all of you for your testimony this morning.
I recognize myself now for 5 minutes and then I will recognize the 
Ranking Member and then Mrs. Dahlkemper.
    Also, I will begin by asking any one of you that would like to 
respond: has anybody testified before or ever come before us to make 
sure that we get modernized equipment or updated IT, because apparently 
all of you feel that we are still in the dark ages? Can any one of you 
respond to that?
    Mr. Mayfield. I will attempt to, Mr. Chairman. No, this is the 
first time that we as NASCOE have been before the Committee and 
testified specifically on the need for improvement of our system. As 
far as why that hasn't been addressed, I can't answer that. I know 
that.
    The Chairman. That is why we are having this hearing, right? The 
other Members who have been here before us, it has never been brought 
before them?
    Mr. Johnson. Mr. Chairman, I am relatively new as the President of 
the National Farmers Union and I just turned to my staff member who is 
newer than I am, so we don't have a lot of history about whether the 
organization has been asked to testify on this. I know we have 
testified before on USDA budgets. I would be very surprised if we 
haven't at least encouraged adequate funding for technology. I say that 
because most of my life I have been a farmer and I talk to farmers and 
ranchers on a daily basis. They all pretty much, I mean there is 
nothing that was said here this morning that farmers don't talk about 
regularly, routinely. They know that we are way behind. Most farmers 
are much further technologically-advanced on their own farm than what 
the government agencies are at USDA that are serving them, and they 
often are asking for the ability to file reports online, do just what 
we do with everything else in our everyday life to have that same kind 
of ability.
    The Chairman. Would anybody else like to attempt to answer?
    Dr. Craig. Mr. Chairman, I wondered whether to say this or not, but 
the last year or so we have had pretty good luck in getting the aerial 
photography that I was talking about. But, for 2 or 3 years before 
that, the entire IT budget or significant portions of it were pulled 
away from the aerial photography to get into the modernization, to help 
with the IT side of things. Maybe they made a good start but it hurt 
the thing that I care about the most.
    The Chairman. Thank you.
    Mr. Turner.
    Mr. Turner. Yes, sir, I tell you I also am relatively new as the 
President of NAFEC but NAFEC in the past has made contact with several 
Committee Members about IT problems and the problems that it caused and 
we have not ever heard anything back.
    The Chairman. Thank you. Hopefully, this time we will be able to 
respond, but let me start asking my additional questions.
    Mr. Johnson, thank you very much for you testimony today. As an 
organization representing the family farmers and ranchers that rely on 
many of the critical Farm Programs at USDA, I appreciate hearing 
NAFEC's views and thoughts on this important subject. In your testimony 
you mentioned the problem that USDA IT systems have had in implementing 
newer programs established in the 2008 Farm Bill. I believe that you 
were involved in the creation of the SURE Program and new Permanent 
Disaster Program in the 2008 Farm Bill. Did you consider the ability of 
FSA to deliver these programs when you were working on the concept? 
That is question number one and then do you know of any farm bill 
programs that have not lived up to their Congressional intent due to 
poor technology at USDA?
    Mr. Johnson. Well, yes, Mr. Chairman, we were very deeply involved 
in the details of the SURE Program as it was moving through these 
committees and others in Congress. All of the components that are used 
to make payments under SURE are components that currently exist in 
USDA. There is nothing new. The one part that might be new is the need 
to make sure that you are using data that RMA is also using because the 
two are very closely linked to the other, but, frankly, that ought to 
be an automatic. So I mean as we are putting the details together, it 
sounds like the question you are asking is should we have designed it 
differently so it could have worked with the technology that we have. I 
don't know that that was your intent but I don't know that anyone could 
design a program that would work with the technology that is as old, as 
outdated, as archaic, as what currently exists. So, maybe I ought to 
just leave it right there.
    The Chairman. All right, thank you very much.
    I know that my time has expired so at this point, I will recognize 
our Ranking Member, Mr. Fortenberry.
    Mr. Fortenberry. One of you had observed, I am sorry, I have 
forgotten which one it was, that many farmers have more advanced, 
sophisticated technological tools that you actively utilize as part of 
the farm operation. Now, most farmers are either there or are rapidly 
transitioning to this. But, in the earlier testimony it was alluded to 
that older systems that do empower a farmer to continue to access 
services in the more traditional fashion also need to be available. Why 
don't you give me a benchmark as to where we are in terms of the 
evolution of the use of technology by the farm community as it would 
interface with government programs more simply and more easily, 
reducing wait time, reducing paperwork such as things that could be 
filled out online ahead of time versus the segment of the community 
that may not be there yet?
    Mr. Mayfield. I will attempt that, Ranking Member Fortenberry. I 
guess the biggest challenges we have, most of our larger producers, 
have GIS technology. You know, they have their combines that now have 
the capability to keep orthomapping data and it would be great to be 
able to upload that information into our system to directly report new-
old and be able to calculate yield for ACRE Programs, for DCP Programs 
and for our record-keeping purposes. Simply, the system we have now, 
that is not possible, so we deal everyday with producers that are 
applying nutrients that are required by soil conservation plans or 
whatever to be precisionally applied to protect against runoff, and 
that type of thing for nutrient loading. Our systems aren't capable to 
provide or share that information to allow us to be able to accomplish 
these tasks. So certainly, a lot of our producers are much further 
technologically advanced than we are and it is sometimes especially 
frustrating for us to see that happen. One of the things that could 
really accomplish that task and help us move in that direction is maybe 
the elimination of some of the duplicative services that we have within 
our offices.
    I know we have mentioned here about working with maps. For example, 
in a county service center, we have two separate systems within the 
same service center that deals with the map process. The gentleman 
mentioned Toolkit. NRCS uses a product called Toolkit. FSA uses a 
product called the Maintenance Tool. They are not compatible. They 
don't communicate with each other and we would certainly like to see 
those be compatible because it would make so much easier to share 
information, and it would keep a producer from having to give that 
information to both of us. If they are trying to satisfy the 
requirements for our programs into their programs, they could give it 
to one central place and then we could share that information. The same 
thing is going on with RMA, with NASS and with FSA processes. You know, 
within USDA we are paying for and accepting the acreage reports and 
yield information in three different places and why do we continue to 
invest in that--a budget environment where we are restricted on 
available dollars where we could take that information in one place and 
share it within departments or within agencies.
    These are the things that our producers would like for us to see. 
Again, as Congressman King had mentioned, their time is very valuable 
and they don't want to have to go to two or three different places and 
provide the same piece of information when they should be able to 
upload that information to one central place and be able to share it 
within the Department.
    Mr. Fortenberry. Any broader sense though of the numbers of 
producers who have advanced capabilities that would be able to, not 
just in terms of downloading information from the farm that would be a 
part of the reporting requirements, but in terms of other interfaces 
that take place, for instance, at the Farm Service Agency. And by the 
way, there is a little bit of a tension here in that we want to move in 
the direction like you are talking about, but it is based on the 
premise that all producers are ready to do that with the technology, 
with an understanding of the technology that is available to them. So I 
am just trying to get a sense in terms of where we are as a farm 
community, pretty well there, partly there?
    Mr. Johnson. Well, I would think that we are quite a ways there 
with the farm community. We have to look at this thing kind of 
piecemeal. I mean obviously not everyone has GIS capabilities, but a 
lot of folks have PCs at home and that is sort of a basic. I had one of 
the farmers in one of the states tell me that FSA has 30 different 
program applications. This farmer said in his state three of those 
program applications were available online and had been available 
online for some time. The three that he said were online were the 
customer statement, the LDPs and DCP. He went on to say that it has 
been 5 years since he even had an LDP payment made, so ten percent of 
the total is available online and some of what is available isn't even 
being used anymore. So it is that real basic to just let the farmers 
interface, if you will, with the agency might be sort of the first 
step.
    Mr. Turner. If I could touch on that briefly, this is a prime 
example of where a lot of the rural community still don't have the 
broadband so the capability is not there. I mean this would be an 
excellent opportunity to move our agriculture into that area if 
broadband was available in all those areas, but where I live there is 
still a considerable amount of people that are on the old dial-up 
system. If you start in on an FSA application, by the time you get it 
open and get your name and your number entered, your dial-up has 
dropped and you start over.
    Mr. Fortenberry. Yes, the question was premised on that 
availability. Yes, that is a good point. Thank you.
    Mr. Krosch. Okay, in my area, the farming community is rapidly 
progressing. We have the entire spectrum from the older farmers who use 
their PCs for e-mail capability to the young farmers who live by it. 
The equipment is gaining--we have all the yield mapping or the sprayers 
are mapping what chemical goes where. I mean we have do all of this. It 
is also scattered, as many different programs, many different 
manufacturers of different software, so it is going to be difficult to 
pull that together for the FSA. It is going to have--it is struggling 
just like we are or you are talking about with yours, we are all 
growing and it adds more problems to what you are trying to accomplish. 
But, the farm industry is moving very rapidly fowards, very rapidly.
    Mr. Fortenberry. Okay, thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Fortenberry.
    Now, I would like to call on the gentlelady from Pennsylvania, Mrs. 
Dahlkemper.
    Mrs. Dahlkemper. Thank you, Mr. Chairman.
    If we go ahead and imagine 1 year from today and you or your 
successor is sitting here in front of us, can you each tell me what 
would be the one improvement that you would like to see they would be 
reporting on has changed, something that is attainable, that is 
practical and what is most important. Just one thing you would like to 
be sitting here reporting to us has changed.
    Mr. Johnson.
    Mr. Johnson. It is hard to narrow it to one. Certainly, having the 
ability to report once across multiple agencies, that probably isn't it 
going to be a problem that gets fixed in 1 year, so maybe a smaller 
goal would be to at least have the program applications available 
online so farmers could connect.
    Mrs. Dahlkemper. Thank you.
    Mr. Mayfield.
    Mr. Mayfield. I would say that probably the most important thing 
would be elimination of these duplicative services that our processors 
are going out to today to get that down to where that producer can use 
one place to do his business and not have to worry about providing that 
same information to multiple places.
    Mrs. Dahlkemper. Okay, thank you.
    Mr. Turner.
    Mr. Turner. I would agree with both of these gentlemen and also on 
the importance in getting the IT technology into the rural areas would 
be your first attainable goal, the broadband.
    Mrs. Dahlkemper. Do think what we have been doing through the 
Recovery Act will help with that?
    Mr. Turner. I think it will.
    Mrs. Dahlkemper. Okay, thank you.
    Dr. Craig.
    Dr. Craig. For me, it is simple. I want a regular program for 
delivering aerial photography.
    Mrs. Dahlkemper. Okay, thank you.
    Mr. Krosch.
    Mr. Krosch. From a conservation standpoint, the LIDAR imaging so 
that we can sit in our offices and get a good picture of what is out in 
the land, so we can tailor a program for what the producer wants to do.
    Mrs. Dahlkemper. Okay, thank you very much.
    I also want that, because obviously we have huge issues with the 
budget and so we have to find a way to pay for this. There should have 
been money expended for many years that was not expended in this area. 
I guess I just want to ask all of you if you have any thoughts on where 
we would get this additional funding. Are there other places we could 
save in the areas that are you dealing? Are there areas we could look 
to, to actually funnel money into improvements that you are looking 
for?
    Mr. Turner. I think you won't have an initial savings, but once you 
get this system in place, you will save immensely because of the 
duplications and the man hours that it takes to use multiple systems 
inside one agency, is one of my feelings.
    Mrs. Dahlkemper. Thank you.
    Does anyone else have anything different?
    Okay, that is all the questions I have. I yield back.
    The Chairman. Okay, thank you very much.
    This is a question for all of the panelists here. Any one of you 
can attempt to answer it if you care to. Do you believe that the 
current statutory limits and regulations on the release of producer 
data together are striking a good balance between the producer privacy 
and the ability to carry out programs or the public's right to know 
about program participation?
    Mr. Mayfield. I understand the public's right to know, I mean most 
the money that we deal with and the programs that we implement are tax 
dollars. I understand that and I think we are close to a place where 
the public does have sufficient access to the information that they 
need to know that those dollars are expended appropriately and 
accurately without crossing into a producer's personal privacy. I do 
think that is very important to protect our producers across the 
country that their privacy and what they do in their private business 
is just as important as an IBM or any other company across this 
country. It is part of their own personal small business that they 
operate each and everyday, so I do feel that we are very close to a 
balance with the information we provide. It is sufficient as far as 
what the public is aware of a producer's particular information.
    The Chairman. Does anybody else wish to--yes, Dr. Craig?
    Dr. Craig. You have touched another part and I guess you may have 
it in the geographic information system world and for us data is 
important. One of the biggest problems we have with this being local 
government is the lack of good personal mapping around the country, and 
yet here you have locked up the CLU boundaries which could be just 
generalized out to ownership parcels. That is all anybody needs for 
appraisal and for that matter, emergency response kinds of issues. Yet, 
you had those out for a little while and then you pulled them back in, 
and it has meant that the smaller local governments are just dead in 
the water for getting any kind of a digital personal map.
    The Chairman. Anyone else?
    Mr. Johnson. I would say the same thing. I was scratching my head 
trying to think of an example but that actually is one where we have 
had a number of folks talk to us, the CLU boundary issues. That is a 
big deal, yes.
    The Chairman. Okay, thank you.
    Dr. Craig, it is clear to see that you are enthused about the NRCS 
Toolkit. Can you explain for the Subcommittee its greater detail and 
what makes this program so effective?
    Mr. Krosch.
    Mr. Krosch. I personally don't use it. I am a supervisor. I am not 
an employee in the office, so for me to describe it perhaps is not 
appropriate. I would be happy to get that information back to you.
    The Chairman. Okay, thank you.
    And then, Mr. Mayfield, the results of your internal survey and the 
problems you have highlighted throughout your testimony, you show that 
there is much work that needs to come with a little bit more efficient 
and cost-effective program delivery system within the USDA. In your 
opinion as a representative of Farm Service employees, what is the most 
important thing that we can do in Congress to fix the IT mess at USDA? 
Is there a mess?
    Mr. Mayfield. Well, there is. I think first and foremost, we have 
to find a way to get away from a system that we start business with 
every day that is 26+ years old. I mean this system was there the day 
that I walked into the office, the first day and it is still there. It 
won't be very long before I walk back out so that system has to be 
replaced, and it has to be fixed for those people that are coming on. 
It is older than most of the employees today. I think the next thing in 
this budget environment is we have to find ways to do things more 
efficiently. If we are going to have one process that we pay for to 
work with ArcMap and CLU layers, why do we want to continue to pay for 
service agreements and maintenance agreements on two different software 
applications? Surely we can come to an agreement of what the 
appropriate application would be that both NRCS and FSA could use 
within one particular service center, and not only that, there are also 
other duplicative services. There are administrative services that are 
handled by more than one agency that the decision could be made to 
place those in one particular place and save the money on having to 
support two separate administrative arms that we deal with within one 
particular service center agency. Again, to go on, we are paying for 
within the USDA the gathering of acreage and yield information in 
multiple places, and if we can gather that information in one place, I 
see that as saving money. All of that invested back in our IT system, I 
think as I mentioned in my testimony, are currently just waiting for 
ArcMap to open and become ready to process. We are wasting several 
minutes of an employee that simply sits there and waits for the system 
to open. This is an investment in waste of those tax dollars while an 
employee is trying to perform their daily service.
    The Chairman. Okay, let me ask one final question. What do you 
believe that the timeline should be to implement new, appropriate 
equipment so that we can be a lot more cost-effective in operating and 
communicating with one another?
    Mr. Mayfield. Mr. Chairman, I guess I am an eternal optimist. I 
would like to have it tomorrow and I realize that is not practical. It 
concerns me somewhat as we talk about a MIDAS project, and I am very 
supportive of that project, and I don't mean that I am not, but it 
concerns me considerably when we are talking about a project that is 
going to be another 3-4 years and we are looking at 2013 or 2014 before 
it wraps up. And we are already looking at a system that we realize is 
26 years old or 24 or 5 years old. When you add another 3-4 years to 
the age of that system it becomes extremely difficult to believe that 
system is going to be able to survive that long. It amazes me each and 
every day that it is able to operate today. I don't know that there are 
very many people that still even write COBOL software, so and I guess 
that concerns me that we are still looking at 3-4 years before we can 
rectify that situation.
    The Chairman. Okay, thank you.
    Anybody else want to answer that? If not, that concludes the 
questions that we have. At this point, I want to thank each of the 
panelists for testifying before us.
    I am going to call on our Ranking Member for any remarks you would 
like to make before we adjourn.
    Mr. Fortenberry. No, simply, gentlemen, thank you all for your 
testimony. Clearly, the gentleman, Mr. Smith, who testified from the 
Department talked about the fragmentation of our system. This easily 
happens in any large multi-agency or bureaucracy, and I think the 
challenges ahead are to ensure that the end-user is serviced in the 
most efficient manner, saving money for the taxpayers, but also 
continuing to help develop our agriculture programs and our 
conservation programs in a way that is consistent with the ideals of 
the nation, so that we are again producing an abundant and safe food 
supply, not only for ourselves but the entire world. So with that said, 
that is all of our ultimate goals here as we dig down into to assess 
how we do this more efficiently. So, I am going to thank you for your 
various ways in which you do participate in public service.
    With that, Mr. Chairman, I will yield back.
    The Chairman. Thank you very much.
    Before we adjourn this hearing, I would also like to thank each of 
you for your participation in today's hearing and your thoughtful 
testimony. Your knowledge and research, I hope, will be used by 
Congress to find the best solution to improve access and more 
effectiveness of the information technology at USDA. Again, I want to 
thank our witnesses and Members for participating today.
    The Subcommittee will now be adjourned, but before I do I would 
like to state that under the rules of the Committee, the record of 
today's hearing will remain open for 10 calendar days to receive 
additional materials to supplement the response from the witnesses or 
any question posed by Members. This hearing on Subcommittee on 
Department Operations, Oversight, Nutrition, and Forestry is now 
officially--before I do, I would like to ask are there any questions 
you would like to ask before we adjourn? I would like to give the 
gentlewoman from Wyoming an opportunity, Mrs. Lummis, an opportunity as 
most of us had an opportunity to ask questions.
    Mrs. Lummis. Thank you, Mr. Chairman, and I am sorry. I have 
conflicting hearings today so it is very nice of you to accommodate me.
    I just want to comment with regard to IT that I appreciate the 
problem of having outdated IT. I understand that some of it is even 
older than some of the people who are working on the computers. I 
remember taking my old skis to have the bindings adjusted and the young 
man who was going to do it said your bindings are older than I am, I 
don't know how to work on these. And so I appreciate that there is a 
problem there, but I also want to remind people that for those of us on 
the user end of computers, some of us are older than those computers 
too and don't know quite how to interact. And in Wyoming, I would 
express the concern that I would hate to see an increase in IT 
technology that is desperately needed be used as a reason to close 
offices that allow for eye-to-eye contact between USDA employees and 
the public. It is those interactions that allow the services of USDA to 
be fully implemented out in states such as my own. And so I encourage 
as proviso that it not be used as a substitute to close offices around 
the country.
    And, Mr. Chairman, I do have other questions but I will submit them 
for a subsequent follow-up, and I do appreciate your allowing me that 
one little comment before you officially close the hearing.
    The Chairman. Thank you, Mrs. Lummis.
    So again, I will repeat, under the rules of the Committee, the 
record of today's hearing will remain open for 10 calendar days to 
receive additional materials and supplement the written response from 
witnesses, and any question posed by a Member.
    This hearing of the Subcommittee on Department Operations, 
Oversight, Nutrition, and Forestry is now really adjourned.
    [Whereupon, at 11:48 a.m., the Subcommittee was adjourned.]

                                  <all>

</pre></body></html>
